<html>
<title> - OVERSIGHT OF THE HUD INSPECTION PROCESS</title>
<body><pre>[Senate Hearing 114-511]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-511


                OVERSIGHT OF THE HUD INSPECTION PROCESS

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 OF THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXPLORING THE HUD INSPECTION PROCESS, FOCUSING SPECIFICALLY ON PROJECT-
  BASED SECTION 8 HOUSING INSPECTIONS, IN WHICH RESIDENTS' DEPLORABLE 
 LIVING CONDITIONS HAVE BEEN EXPOSED IN FLORIDA AND OTHER STATES, AND 
                  EXPLORING SOLUTIONS FOR THESE ISSUES

                               __________

                           SEPTEMBER 22, 2016

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


                 Available at: http: //www.fdsys.gov /
                 
                 
                 
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-011 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2542554a65465056514d4049550b464a480b">[email&#160;protected]</a> 
                             
                 
                 


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

MIKE CRAPO, Idaho                    SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
DAVID VITTER, Louisiana              CHARLES E. SCHUMER, New York
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
MARK KIRK, Illinois                  JON TESTER, Montana
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            JEFF MERKLEY, Oregon
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
JERRY MORAN, Kansas

           William D. Duhnke III, Staff Director and Counsel

                 Mark Powden, Democratic Staff Director

                       Dawn Ratliff, Chief Clerk

                      Troy Cornell, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                  TIM SCOTT, South Carolina, Chairman

         ROBERT MENENDEZ, New Jersey, Ranking Democratic Member

MIKE CRAPO, Idaho                    JACK REED, Rhode Island
DEAN HELLER, Nevada                  CHARLES E. SCHUMER, New York
JERRY MORAN, Kansas                  JON TESTER, Montana
BOB CORKER, Tennessee                JEFF MERKLEY, Oregon
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID VITTER, Louisiana

              William Gardner, Subcommittee Staff Director

         Rebecca Schatz, Democratic Subcommittee Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                      THURSDAY, SEPTEMBER 22, 2016

                                                                   Page

Opening statement of Chairman Scott..............................     1

Opening statements, comments, or prepared statements of:
    Senator Menendez.............................................     2
    Senator Corker...............................................     3
    Senator Tester...............................................     4

                               WITNESSES

Bill Nelson, a U.S. Senator from the State of Florida............     4
    Prepared statement...........................................    23
 Marco Rubio, a U.S. Senator from the State of Florida...........     5
    Prepared statement...........................................    24
Edgar Olsen, Professor of Economics and Public Policy, University 
  of Virginia Batten School of Leadership and Public Policy......     8
    Prepared statement...........................................    25
Tracy Grant, President, Eureka Gardens Tenants' Association, 
  Jacksonville, Florida..........................................    10
    Prepared statement...........................................    34
Major Josh Lewis, Riviera Beach Police Department, Riviera Beach, 
  Florida........................................................    11
    Prepared statement...........................................    36
Vincent F. O'Donnell, Affordable Housing Consultant..............    13
    Prepared statement...........................................    38

              Additional Material Supplied for the Record

Pictures of damage at HUD Section 8 properties, Global Mission 
  Foundation and Windsor Cove, submitted by Chairman Scott.......    43

                                 (iii)

 
                OVERSIGHT OF THE HUD INSPECTION PROCESS

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2016

                                       U.S. Senate,
          Committee on Banking, Housing and Urban Affairs, 
    Subcommittee on Housing, Transportation, and Community 
                                                Development
                                                    Washington, DC.
    The Subcommittee met at 10 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Scott, Chairman of the 
Subcommittee, presiding.

            OPENING STATEMENT OF CHAIRMAN TIM SCOTT

    Senator Scott. Good morning to everyone. Thanks for being 
here. This Committee will come to order.
    Today we will learn about the HUD inspection process, 
specifically at project-based Section 8 housing. Witnesses will 
testify about their experiences with the HUD inspection process 
and, hopefully, suggest solutions to prevent these types of 
deplorable living conditions for residents in the future.
    We have two very special guests with us this morning. One 
is here, actually. Both of them are here. We have my colleagues 
from the State of Florida, Senator Bill Nelson and Senator 
Marco Rubio, who both represent the State of Florida here in 
the U.S. Senate.
    Our second panel will have witnesses including Ms. Tracy 
Grant, President of The Eureka Garden Tenants' Association in 
Jacksonville, Florida, also, I think, a home girl from 
Charleston, South Carolina. Go St. Andrews Rocks, who I used to 
play in football. I will not say the outcome, just to save her 
the embarrassment.
    Ms. Grant is here to give testimony on her first-hand 
experience as a resident of Global Mission Foundation-owned 
properties.
    We will also hear from Major Josh Lewis of the Riviera 
Beach Police Department--thank you for being here, sir--in 
Riviera Beach, Florida. Major Lewis is in charge of code 
enforcement for the GMF property in Riviera Beach.
    Finally, we will receive testimony from Dr. Edgar Olsen, 
who is also here with us. Dr. Olsen is a Professor of Economics 
and Public Policy at the Frank Batten School of Leadership and 
Public Policy at the University of Virginia. He has been a 
postdoctoral fellow at Indiana University, an economist at the 
RAND Corporation, a project associate in the Institute for 
Research on Poverty, and a visiting scholar at the U.S. 
Department of Housing and Urban
Development. Dr. Olsen has been a consultant to HUD during six 
Administrations.
    It deserves being pointed out that the title of today's 
hearing is ``Oversight of the HUD Inspection Process,'' yet 
clearly missing is anyone from HUD. Not a single employee of 
HUD could make the time to come inform and educate us on why 
these deplorable conditions are the way they are. After several 
attempts from my office, after weeks of asking them to come, 
out of their 8,400 employees, they cannot spare a single 
individual to be here this morning. A $32 billion budget, 
located--many of those employees located here in DC, not a 
single one of them could make it. I actually have email 
confirmation of the conversation that my staff had, asking them 
to come, giving them time to figure it out, but they are not 
here.
    I first learned about the issues at Eureka Gardens 
Apartments when my friend, Marco Rubio, sent a letter to the 
Chair and the Ranking Member of the Senate Banking Committee, 
requesting a hearing on the matter. After digging into the 
issue, I learned that there was widespread neglect at these 
properties and that many residents were living in unsafe 
conditions. Residents had to be hospitalized at some units. 
Frankly, this is unacceptable.
    I want to show a quick video of the definition of 
deplorable conditions.
    [Video played.]
    Senator Scott. Here is my question. How can we allow these 
living conditions to persist? How is it that not a single 
employee at HUD would make the time to come out and explain 
what is not happening? Should we not care about the living 
conditions of poor folks in this Nation? Should we not take 
greater advantage of the opportunity to help all of us 
understand and appreciate what is happening or what is not 
happening? Thank goodness Senator Nelson and Senator Rubio have 
brought a big, bright light to these deplorable conditions.
    I am disappointed in HUD. I cannot believe the conditions 
that Global Ministries allows at their properties, but I am 
thankful for Senators who care enough about every one of their 
citizens to be here this morning.

              STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. Thank you, Mr. Chairman, for holding this 
hearing. I want to thank our two distinguished colleagues for 
bringing this to light and driving the opportunity for the 
Committee to look at the issues affecting not only this 
particular housing community in Florida but across the country, 
and I appreciate the witnesses who have come to join us today.
    In my home State of New Jersey, like many other States 
across the country, it is facing a two-fold problem of an aging 
housing inventory and an incredibly tight rental market that 
leaves far too many families without an affordable place to 
call home. In fact, nearly 65 percent of New Jersey's housing 
stock was built before 1975. Add to that the fact that a 
minimum-wage earner in New Jersey, at $8.38 per hour, would 
have to work an astounding 105 hours per week to simply afford 
a modest, one-bedroom apartment at fair market rent, and you 
have got the making of an affordability crisis on your hands.
    Our affordable housing stock is one of the most valuable
resources, and for the approximately 1.2 million households 
that benefit from project-based rental assistance--who are 
merely seniors, families with children, and people with 
disabilities--these units can be opportunity creators. We know 
that when we see better outcomes for low-income and extremely 
low-income families, the elderly, people with disabilities, 
when they have sustained access to safe and affordable housing 
in areas rich with employment opportunities, educational 
centers, and transportation hubs, and project-based assistance 
is a critical element of this equation. As such, we must be 
thoughtful in how we address issues impacting tenants and in 
the steps we take to preserve affordable housing inventory.
    Now let me take a step back for a moment and address the 
issues in Florida, which initially brought this hearing to the 
Committee. Let me be clear. There should be no place in our 
affordable housing programs for dishonest and duplicitous 
landlords who fail to meet the most basic duty to their 
residents--providing them with decent, safe, and sanitary 
homes. Homes, after all, are the place that we go to when we 
are born, it is where we are nurtured as we grow up, it is 
where we spend good and bad times, it is when we ultimately 
leave, when we move on in life and then start a new home. And 
so the very essence of home, whether it be by ownership or 
whether it be by rent, is an incredibly important concept in 
our country, and that home should be nurturing and the 
environment should be safe, clean, and affordable.
    So, Ms. Grant, I want to thank you for your willingness to 
share your difficult story with us here today, and those of 
other tenants. It is critical for the Committee to hear 
experiences of tenants, and believe when I say that it informs 
our work. It has, for me, as a Member of this Committee for 
quite some time.
    As the saying goes, when Members of Congress feel the heat 
at home, we see the light in Washington. So Congress relies on 
our constituents--so, too, should HUD--and landlords rely on 
their tenants to bring issues to light and inform solutions.
    So today as we are confronting this issue, and hopefully 
putting a garish light on it, and by doing so improving the 
lives of the tenants in this particular location, I hope that 
it can broaden that light as it relates to the processes that 
we engage, to ensure that the type of housing we want to see is 
realized.
    I look forward to hearing from Ms. Grant on her experience, 
from Mr. O'Donnell on how landlords and HUD can be better 
equipped to effectively respond to tenant and property needs, 
and I think, in addition, it is critical that we examine HUD's 
role in responding to troubled properties, how we can ensure 
tenants have access to high-opportunity neighborhoods, and are 
not displaced when landlords do not hold up their end of the 
bargain, and how best to preserve our units of affordable 
housing.
    I look forward to the testimony. Thank you, Mr. Chairman.
    Senator Scott. Thank you. Senator Corker.

                STATEMENT OF SENATOR BOB CORKER

    Senator Corker. I will be very brief. I know we have 
distinguished panels before us.
    I want to thank you, Senator Scott, and Senator Menendez 
for causing this hearing to take place. I know each of us are 
so busy here that many times we do not know much about each 
other's paths, but I likely would not be a United States 
Senator today had I not been aware of these types of problems 
in my own community, and as a private citizen led a very large 
effort to try to make sure that Chattanoogans had decent, fit, 
and affordable housing.
    And I have seen, as you have, as all of us have, some of 
the
deplorable conditions that people live in, and Senator 
Menendez, your comments about home, it is when you look at 
yourself and maybe the way you were able to go through your own 
high school years, and others, and you see other young people 
living in conditions that really are not fit for human beings, 
it causes you to rise up and want to do something about it, and 
again, I thank you for putting a light on this issue.
    I especially thank Senators Nelson and Rubio for 
highlighting this to the Nation, and I think you know the 
landlord in concern also had some facilities in Tennessee, and 
even though HUD has been nonresponsive today, in having a 
witness, I will say they responded fairly quickly to some of 
the conditions that we had there that would not have been 
known, really, publicly, without the efforts of the two of you. 
So I thank you very much.
    It actually caused us to personally go inspect some other 
units that we have been concerned about in other places in the 
State. And so, therefore, again I thank you. I appreciate you 
guys really shining the light, as has been mentioned by the 
Chairman, on this issue, and I look forward to reviewing the 
legislation that you are proposing.
    So, again, thank you so much for bringing this to the 
Nation's attention and hopefully helping us provide a much 
better solution for oversights, especially with landlords--I 
mean, some of these landlords are--some of them are obviously 
good, but, you know, so many of them are just total absentee, 
have no regard for the people who live in these various 
facilities, and obviously that has got to change. So thank you.
    Senator Scott. Thank you, Senator Corker. Senator Tester.

                STATEMENT OF SENATOR JON TESTER

    Senator Tester. I just echo the remarks of Senator Corker 
and thank you and Senator Menendez for calling this hearing.
    I do not care if you live in Montana or New Jersey or 
anywhere in between, affordable housing is a big, big, big 
issue, and making sure that the housing is livable is critical, 
and transparency and oversight is huge, so thank you for having 
this hearing.
    Senator Scott. Yes, sir. Senator Nelson.

  STATEMENT OF BILL NELSON, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. Mr. Chairman, I appreciate you expressing 
the outrage that both of us feel as we visited these places. I 
also want to say what Senator Corker said, that HUD did respond 
to us but it is totally unacceptable that they would not accept 
your invitation of this Committee, and I think you ought to 
consider a subpoena to haul them in here.
    For example, why was it that in the complex called Windsor 
Cove, that Senator Rubio and I visited, why was it that when we 
saw those conditions that you saw amply displayed in that 
Channel 9 clip, as well as the Channel 4 clip in Jacksonville, 
why was it that just a few months earlier they had had an 
inspector, and out of a grade of 100 he gave them 91? And when 
we raised Cain they had another inspector come back and he gave 
them a grade of 48.
    And then they appealed that, and then it takes more months, 
so that the residents had to wait 10 months for HUD to get it 
right, and then have that new inspection that ultimately got--
they got some relief, all the time with intimidation that if 
you go and blow the whistle, we are going to evict you from the 
apartment.
    Now that is the atmosphere, and I am glad the Senator from 
Tennessee is here, because that particular outfit that has 
apartments in a number of States--they have a good deal of 
concentration in Florida; they have about 16 of them in 
Florida--they are located in Tennessee.
    Now, the bright break in the clouds is--for this particular 
situation, is that HUD is facilitating a sale but they are in a 
60-day due diligence period with an outfit from Ohio that has a 
lot more apartments, and, therefore, is integrated with their 
own construction company, their own management company, et 
cetera.
    But what about the inspections? Why did HUD have such a 
crazy system that was not reflective of the reality that we saw 
when we stepped on the squishy, water-filled carpets, and saw 
the mold on the ceiling by the vents? These are not conditions 
that people ought to be living in, and you saw it in those 
clips.
    Now, what we are doing is introducing the Housing 
Accountability Act to remove the overdependence on unscrupulous 
managers and faulty inspections, so that HUD has a better idea 
of what our Federal taxpayer money is doing, to try to help 
people have a decent place to live. I will not go through the 
legislation. You will have it explained in detail. It codifies, 
in law, what are some regulations. It establishes a process for 
independent contract examinations, so that you will not have a 
91 out of 100 as a score on deplorable living conditions. And 
it will create a new penalty for the owners who fail to 
maintain the safe and secure environment, as Senator Menendez 
says, that is a home environment that ought to be a place for 
security and safety.
    We certainly appreciate you having this hearing to bring to 
light these things.
    Senator Scott. Thank you, Senator Nelson. Senator Rubio.

  STATEMENT OF MARCO RUBIO, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Rubio. Thank you. Thank you, Mr. Chairman. Thank 
you all for holding this hearing on this important issue.
    So the central mission of HUD is to provide safe and 
sanitary conditions for people receiving housing assistance, 
and so I think we are all deeply disturbed to see taxpayer 
dollars being wasted like this, and disappointing that HUD has 
failed to provide a
witness here today. I think what you will learn as you look 
into this deeper is, in addition to perhaps some negligence on 
the part of individuals at HUD, and certainly the blame that 
falls in the hands of these slum lords that own and operate 
these buildings, we have a process that is broken, and I will 
describe that in detail in a moment.
    I do, again, want to thank your two witnesses that are 
going to be testifying on the second panel, Ms. Tracy Grant and 
Major Josh Lewis. Both of them have done much to help Florida 
and the entire country through the work--through their work to 
make these conditions known. We would not be having these 
hearings here today, for example, if Ms. Grant had not come 
forward, and I want to thank them for taking the time to travel 
here and testify before the Committee.
    I became involved in this situation about a year ago, when 
the tenants of Eureka Gardens took their case to the public, 
and these tenants bravely made their voices heard, even as they 
faced the threat of eviction from their landlord, a landlord by 
the name of Global Ministries Foundation. Since then, residents 
at Global Ministries Foundation properties, and at derelict 
Section 8 housing properties around the State, have also spoken 
of their troubles.
    And I want to leave this on the record without any doubt. 
Global Ministries Foundation are slum lords. They operate these 
facilities at the bare minimum. They take money from the 
American taxpayer and they spend as little as possible on 
maintenance, and I invite you to look at their financials so 
you can see how much money they pay themselves and the people 
that work around them, including many family members of the 
individual at the head of this organization.
    When I visited Eureka Gardens in Jacksonville I saw 
crumbling staircases, exposed electrical wires, boarded-up 
windows that would trap a child inside if there was a fire. I 
saw an apartment that had not been painted in 13 years. I saw 
pieces of wood with exposed nails put up in place of a door, in 
a unit that had small children living in it. This was evident 
even after Global Ministries rushed crews to the property to 
make cosmetic repairs just 48 hours before I arrived. The scene 
was unreal. As we arrived, they had set up banners, all these 
work crews around, just to kind of make it look like they were 
doing things, but in the end, as soon as we left, the crews 
left, and the work they did was largely cosmetic.
    I spoke with tenants who had been through a lot over the 
last few years and heard stories like some of the ones you will 
hear today from Ms. Grant, stories of neglect and crime and 
bureaucratic indifference from HUD.
    When Senator Nelson and I visited Windsor Cove Apartments 
in Orlando, another GMF property, as he said we saw standing 
water in apartments, and damaged roofs, collapsed ceilings, and 
we breathed air that reeked of mold. We spoke with residents 
who lived there for multiple years now, trapped in a facility 
whose conditions no one should have to endure.
    A couple of weeks ago I visited Stonybrook Apartments in 
Riviera Beach, and I want to--this is hard for me to say 
because the other two places were so bad, but what I saw at 
Stonybrook is even worse. In addition to all the other things 
we just talked about, as you walked through the courtyard you 
will see little nickel bags and dime bags of drugs, consumed 
drugs, all over the place, more common than any other garbage 
that might be laying around, in the courtyard of that building.
    And unwillingness to repair these properties is 
unfortunately par for the course for Global Ministries. They 
willfully neglect the well-being of their tenants, as you will 
hear from Major Lewis testifying today.
    These are the three GMF properties I visited in the State 
of Florida. In each case, I am sad to say that HUD has enabled 
fraud and abuse to continue, all while taxpayer money continues 
to flow into the pockets of these slum lords. Bureaucratic red 
tape, miscommunication, a lack of urgency have plagued the 
administrative response.
    But nothing displays how broken this program is better than 
HUD's own inspection process. The passing score for a HUD 
inspection is 60 out of 100. If a property scores above this 
threshold, HUD gives it the stamp of approval, declaring the 
conditions are decent, safe, and sanitary, an approval that 
traps tenants at the property and keeps money flowing to the 
landlord.
    What I have discovered in Florida, however, is that HUD has 
compromised the integrity of these standards. Last year, the 
inspection at Windsor Cove, which we visited, they gave them a 
passing score of 90 out of 100. The next inspection, which 
happened to occur a week after Senator Nelson and I visited the 
property, gave it a failing score of 48. That inspection found 
a projected 86 life-threatening deficiencies on the property. 
From one score to the next, this kind of inconsistency is 
beyond belief.
    Eureka Gardens received a score of 80 out of 100 during the 
summer inspection that occurred just before the tenants came 
forward. After months of back-and-forth repairs, 
hospitalizations from gas leaks, alleged lead poisoning, and 
incessant mold outbreaks, HUD came back with a follow-up 
inspection and still passed them, but this time 62 out of 100. 
Can you imagine--62 out of 100 in the facility that you just 
saw images of a moment ago.
    Right after that inspection, in a letter sent to GMF after 
visiting the property, the Deputy Assistant Secretary for 
Multifamily Housing wrote that HUD officials do not believe the 
property would currently pass another REAC inspection, despite 
the fact that an inspection had just happened barely a month 
before.
    These slum lords cause the problems but HUD has enabled it, 
and the twin vices that so often afflict massive Federal safety 
net programs, bureaucracy and corruption, have prevented the 
kind of action necessary to protect the tenants and allow this 
crisis to go on for far too long. So that is why we introduced 
and passed three amendments to the HUD legislation that we 
considered back in May, and Senator Nelson and I have also 
introduced legislation that would enact a tenant survey, in 
order to better identify problems in properties like GMF's.
    The problems at these properties are not limited to the 
State of Florida. These slum lords, GMF, they own properties in 
Alabama, Indiana, Louisiana, North Carolina, New York, Georgia, 
and Tennessee, and similarly bad conditions have led to Federal 
investigations because of those properties. They own over 5,000
taxpayer-funded units across the Nation. And beyond GMF, if HUD 
is falsely certifying the living conditions at these many 
properties for one organization, then it is probably doing the 
same for many other entities we have yet to hear about.
    So I look forward to hearing from today's witnesses about 
the
effects of GMF's fraud and HUD's neglect, and I hope we can 
continue working together, across party lines--this is not a 
partisan issue--to investigate GMF, and to pass legislation to 
fix HUD's faulty inspection process.
    Thank you.
    Senator Scott. Thank you, Senator Rubio.
    We will now go to the second panel, as our good colleagues 
clear the way.
    [Pause.]
    Senator Scott. Dr. Olsen, do you want to start?

  STATEMENT OF EDGAR OLSEN, PROFESSOR OF ECONOMICS AND PUBLIC 
POLICY, UNIVERSITY OF VIRGINIA BATTEN SCHOOL OF LEADERSHIP AND 
                         PUBLIC POLICY

    Mr. Olsen. OK. Thank you, Senator Scott.
    I am delighted to be here today to discuss what should be 
done about the poor condition of privately owned, subsidized 
housing projects, like those observed by Senators Rubio and 
Nelson, and the disconnect between their observations and what 
is reported in HUD's system for monitoring the condition of 
these units. Although I did not observe the units directly 
until right now, and I am not intimately familiar with HUD's 
monitoring system, I hope that I will be able to contribute a 
little to the discussion based on my knowledge of the programs 
involved and the evidence on their performance. I have studied 
low-income housing assistance for more than 40 years.
    I will cut to the chase. What Senator Rubio and Senator 
Nelson have uncovered is a perfect illustration of what the 
systematic evidence shows about the performance of the Section 
8 new construction program, and other programs that subsidize 
the construction of privately owned, low-income housing 
projects. The total cost of providing this housing, that is, 
what the tenants pay and all of the public subsidies, greatly 
exceeds the market rents of the units provided. The ultimate 
solution to this problem is to phaseout programs of this type.
    However, we also need to deal with the existing projects to 
ensure that they provide housing that meets the program's 
minimum standards. The units observed did not meet these 
standards, obviously, and HUD's monitoring system said that 
they did.
    I will describe the program's incentives for poor 
maintenance and then talk about what should and should not be 
done about it.
    In exchange for substantial subsidies, the developers of 
privately owned projects agreed to provide housing meeting 
certain standards, at restricted rents, to eligible households 
for a specified number of years. HUD has a system for 
monitoring the condition of subsidized units. The Senators' 
observations suggest that this system is not working at all 
well. Senator Rubio has already shown that the units in a 
number of projects owned by a particular organization that 
operates many projects are in deplorable condition. You should 
not assume that this problem is limited to this one owner.
    The structure of the program incentivizes poor maintenance. 
When built, the units tended to be of reasonable quality 
because the projects received development subsidies that were 
proportional to the cost of building them. When new, they were 
terrific bargains for the tenants. However, the landlords have 
no incentive to maintain them except for dealing with problems 
that would severely damage the structure. It takes many years 
of poor maintenance for units to deteriorate so much that some 
tenants are unwilling to pay the 30 percent of their modest 
incomes to live in them. Until that happens, the owners can 
retain their tenants, even though they spend a little or 
nothing on maintenance.
    The monthly subsidy that owners get from HUD does not 
depend on the level of maintenance, and it is automatically 
adjusted upward each year to account for inflation. So owners 
get the same subsidy in real terms, year after year, even 
though the housing provided gets worse and worse. With this 
setup, the owners maximize profits by skimping on maintenance.
    This problem is exacerbated by the existence of the low-
income housing tax credit program, that provides large 
additional subsidies for the renovation of many of these 
projects. This restarts the process of under-maintenance and 
excessive profits.
    As long as the units meet the program's minimum housing 
standards, the owners have honored their commitment and are 
legally entitled to receive the promised subsidies. HUD is 
responsible for the inspection of units in these properties, on 
a regular basis, to ensure that they meet the standards. If 
violations are detected, owners are given a certain amount of 
time to correct them. If they fail to do it, HUD is supposed to 
terminate the contract, stop sending the monthly subsidy to the 
owner, and provide the tenants with housing vouchers.
    On my understanding of the facts, that did not happen for 
the projects inspected by Senator Rubio, because HUD's 
monitoring system said that the units met the program's minimum 
standards.
    The question is what to do about Senator Rubio's discovery. 
The first step is obviously to deal promptly with the 
particular projects that have already been observed. The second 
is to determine whether these are isolated incidents or 
widespread. Given what I have said, I would not be surprised if 
they were widespread.
    Senator Rubio and Senator Nelson have already done, I 
think, what is needed to deal with these particular matters. 
What should not be done, in response to Senator Rubio's 
discovery, is to provide additional subsidies to the owners of 
these projects to renovate them. The evidence indicates that 
this is a highly cost-ineffective method for delivering housing 
assistance.
    Indeed, we should go further and not renew the contracts on 
these projects at the end of their use agreements but instead 
give their occupants housing vouchers. The evidence indicates 
that amounts well above market rents are paid when government 
renews use agreements with owners of privately owned subsidized 
projects. In contrast, market rents are paid for units that are 
occupied by voucher recipients. If the owners of projects are 
providing good housing for the money at the end of the use 
agreements, their tenant will want to use their vouchers to 
remain in their current units. Otherwise, the owners should not 
be in the business of providing housing.
    Senator Scott. Ms. Grant.

 STATEMENT OF TRACY GRANT, PRESIDENT, EUREKA GARDENS TENANTS' 
               ASSOCIATION, JACKSONVILLE, FLORIDA

    Ms. Grant. Good morning. Thank you, Chairman Scott and 
Senator Rubio, for inviting me.
    I came from Charleston, South Carolina, and I moved to 
Jacksonville, or back to Jacksonville, in 2010--August, 2010. I 
went to apply for an apartment in Eureka Gardens at the 
beginning of September. I got approved and got my keys on 
September 24 of 2010.
    In the process of even trying to get the apartment, I went 
through a lot of stumbling blocks. It was--your birth 
certificate was not a proper birth certificate because it was 
not from Florida and it was too small, so it did not have all 
the information they were looking for, like who my mother was, 
and my father was. And they wanted a big copy, and I told them, 
I said, ``No. this is a legitimate birth certificate,'' and 
they had--there was someone else in the office that knew what 
South Carolina birth certificates--the smaller version--looked 
like.
    So I went through that issue with them, and then it was the 
issue--when I told them I did not come in there with any 
income, because I was told it was income-based, so I did not 
have to pay a light bill, I did not have to pay a gas bill, and 
I did not have money to pay rent. And I had to get a letter 
from my cousin saying that, you know, she was helping me pay my 
rent.
    So those three things, right off, just threw me. I knew 
something was wrong. I knew that there was a problem but I did 
not know how far or how much of a problem it was.
    So I moved in October--the first weekend in October of 
2010, and that night that I actually moved in there was a 
gunshot by my window, that night. Me and my kids slept on the 
hard cement floor, and this was not what I was looking for.
    Needless to say, it persisted. Things just started to 
unfold. When I really went through my apartment, the walk-
through was even horrible because the floors had still looked 
dirty, like they did not take up the floors and redo them. They 
waxed over whatever was on the floor. They just waxed over it. 
When I moved in, the kitchen sink, right behind the faucet, was 
moldy, and in the bathroom there was mold.
    Then when my kids and I started to take a bath, water just 
started coming from the bathtub and I could not figure out 
where it was coming from. It was not coming over the bathtub. 
It was not coming from under or over the toilet. It just--water 
just appeared, not realizing that the water was actually going 
into the bedroom that I was sleeping in, in the closet.
    So, over time, that water just started to smell because I 
did not clean it up, meaning I did not know it was there. So 
when I said something about it they just kind of came in. It 
was like, ``Oh, OK. We do not see a problem,'' and I kept 
calling and calling, for the same issue, until they actually 
figured out the pipe under the tub was broken. Never seen a tub 
come up. Never seen them take anything out to get moisture or 
anything.
    The same issue was going on with a lot of the tenants in 
the apartment complex. So with all the mold, then it became the 
gas issue. You were smelling gas, and it was not just inside 
the apartment. It was outside. So when you smell the gas it is 
kind of like, OK, where is the gas coming from? Somebody needs 
to turn the gas off, somebody needs to check their stove, and 
not realizing that underneath the ground the pipe was bursting.
    All of this was going on. I have been there for 6 years, 
and it has been persistent. Global Ministries, they did send 
their people out to patch things up, and right now it is a 
temporary fix. Yes, they did come in, and yes, they did do 
work, but how long will those patches stay up? How long will 
those patches be there, you know, to satisfy whatever passing 
score they have to get?
    I know a lot of my residents in Eureka Gardens. They want 
to move out. They do not want to stay there anymore. They want 
completely out. They want to be able to live clean, decent. 
They want central air. They want better stoves, they want 
better refrigerators, better everything. They are tired. I have 
residents there that have been there since the apartments 
opened, and that has been almost 50 years ago. Some that have 
been there 20-something years, and they do not understand.
    And when you were talking about disability and elderly 
people, most of our elderly people that were there, some of 
them have passed away in those apartments. Were any of those 
causes due to the mold, the gas leaks, and any other problems 
that were in the apartment? I cannot say. But when you start 
talking about children with lead issues, enough is enough.
    I have a 7-year-old, and when I moved here I had found out 
that she had asthma. I do not know if it was because of the air 
here or anything, but I know that she has asthma. Last year, in 
November, I found out I had asthma. I found out lately that I 
have had neighbors that are on CPAP machines, that have asthma 
machines, pumps, and not just one of each. Some of them have 
all of these things.
    So we do not want to live like this consistently, but you 
change----
    Senator Scott. Thank you. I will give you 30 seconds to 
wrap up.
    Ms. Grant. Oh, OK--you change the way that we live, we will 
be happy.
    Senator Scott. Thank you, ma'am, and for all the speakers 
we do have a lighting system there--green, start; red, stop. 
Thank you.
    Major Lewis.

STATEMENT OF MAJOR JOSH LEWIS, RIVIERA BEACH POLICE DEPARTMENT, 
                     RIVIERA BEACH, FLORIDA

    Mr. Lewis. Good morning. On behalf of the grateful city of 
Riviera Beach, we thank you for bringing light to this. It was 
definitely necessary and needed, and it is a pleasure to be 
here.
    My name is Major Josh Lewis of the Riviera Beach Police 
Department, which is a municipal police department located in 
Palm Beach County, Florida. I have been in law enforcement for 
approximately 19.5 years, all with the city of Riviera Beach. 
My professional highlights include attending the SPI Command 
Institute Academy, along with the FBI National Academy. I 
currently have a master's degree in critical incident 
management.
    The Riviera Beach Police Department initiated an 
investigation at Stonybrook, which is located at 1555 Martin 
Luther King Boulevard in Riviera Beach, in an effort to impact 
various public safety, health, and quality of life issues at 
the apartment complex. Stonybrook, which was constructed in 
1972, is an affordable residential development comprised of a 
mix of two- and three-bedroom, two-bath housing units. There is 
a laundry and maintenance facility and a community center on 
the property. Fourteen buildings house 216 residences. The 
property sits on approximately 8.67 acres.
    I would like to discuss a timeline of events that took 
place at Stonybrook, some of the conditions, some of the 
actions the city has taken, and some of the inactions others, 
to include GMF Management and Property Management, have failed 
to do.
    Between November 28, 2012, and March 20, 2013, city
officials held a series of meetings with representatives of the 
property management company for Stonybrook and the Regional 
Director for the U.S. Department of Housing and Urban 
Development, HUD. The topics of discussion were the prevalence 
of criminal activity at the location, along with property 
maintenance issues. At the same time, the property owner was 
notified about these issues. However, the property owner and 
their agent resisted the attempts of city officials to compel 
them to implement strategies and improvements, and no action 
took place.
    During this time, there were numerous drug warrants 
executed, which resulted in multiple felony arrests. These 
arrests satisfy the legal standard to declare Stonybrook 
Apartments as a public nuisance. Property owners and HUD were 
also notified about these findings. Research as early as 2012 
indicated that GMF Stonybrook, the property owner of 
Stonybrook, has a history of not maintaining the residential 
units in decent, safe, and sanitary manners, more specifically 
in Memphis, Tennessee, and Jacksonville, Florida, which has 
lost their Federal funding based on repeated code violations.
    In March 2013, Stonybrook received a notice of violation 
for accumulation of debris, loose garbage, landscaping 
overgrowth, and an assortment of other miscellaneous code 
violations. In June 2014, Stonybrook was declared a public 
nuisance again, pursuant to our city ordinance. The property 
owner stipulated to complete the following improvements which 
were designed to abate the ongoing criminal nuisances to 
include securing access points to the property, providing armed 
security, installing security cameras,
installing a controlled access gate, install landscaping, 
remove loose garbage, fix irrigation systems, paint the 
exterior of the buildings, and to add lighting.
    In August 2013, at a code enforcement magistrate hearing, 
the owner was found in violation of all the said items. The 
magistrate allowed the owner 120 days to comply or the fines 
would commence. The police department continued to monitor the 
property, in reference to the magistrate's order.
    In May 2014, a nuisance abatement status hearing took 
place. After presenting evidence, the magistrate found the 
nuisance had still not been corrected. As a result, the city 
and property owners agreed to extend the magistrate's 
jurisdiction over the property until December 2014.
    In November 2014, a notice of hearing to impose fines and 
claim of lien hearing was held. The magistrate found that the 
property owner had still not complied with the order and 
violations of landscaping and loose garbage remained. In 
December of 2014, a nuisance abatement status hearing was held. 
At this hearing, the city provided evidence that Stonybrook was 
still not fully in compliance with the nuisance abatement order 
and their landscaping and loose garbage violations had still 
not been corrected.
    In January 2015, Stonybrook fired the property management 
company. The police department continued to monitor the 
property to ensure compliance with the conditions set forth by 
the magistrate's order.
    In October 2015, a new case was heard before the magistrate 
for continued nuisance issues and the property was again 
declared a public nuisance. As such, the owners again 
stipulated to improving the property, to work on the ongoing 
criminal nuisance, and provide security service onsite, and to 
deal with some of the perimeter security issues on the 
property, such as a front gate, surveillance systems, parking 
details, towing system, and a tenant
eviction process.
    These improvements were ordered to be completed within 45 
days. The police department again continued to monitor to 
ensure compliance. In May 2016, a nuisance abatement status 
hearing took place. In the hearing, the magistrate found that 
the city provided sufficient evidence and testimony 
establishing Stonybrook as a recurring public nuisance. This 
was based, in part, due to a series of drug deals which had 
recently taken place on the property.
    In June 2016, with Stonybrook management compliance, the 
city fire department conducted an inspection. Numerous 
violations were located.
    In 2016, we were lucky to be contacted by Senator Rubio's 
office regarding the inquiry of the violations, and to 
summarize my testimony today, the property owners have 
continuously, as I testified to, failed to completely correct 
the nuisance and code issues and do not appear to have any 
inclination to do so.
    Senator Scott. Thank you, sir. Mr. O'Donnell.

     STATEMENT OF VINCENT F. O'DONNELL, AFFORDABLE HOUSING 
                           CONSULTANT

    Mr. O'Donnell. Thank you, Chairman Scott, Ranking Member 
Menendez, other Members of the Committee, and Senators Rubio 
and Nelson and Ms. Grant for bringing this out for all of us to 
discuss today and the opportunity to testify.
    My name is Vincent O'Donnell. I am a private affordable 
housing consultant. I have worked for over 40 years with 
nonprofits, State and local governments, and policymakers, and 
I have worked a lot with HUD around the issue of affordable 
housing preservation. I started my career in code enforcement, 
and it is distressing, really, to have to continue to be 
talking about that but it seems to be an issue that is always 
with us.
    I work with a group called the National Preservation 
Working Group, which is a coalition of organizations, again, 
similar to what I said before, nonprofits and policy 
organizations, State and local governments, that are interested 
in the preservation of affordable housing in the United States, 
specifically HUD-assisted and USDA-assisted housing. This 
coalition was convened by the National Housing Trust and has, 
for over several decades, worked with Congress and with HUD to 
try to improve our system of providing affordable rental 
housing.
    And although it is really distressing to hear what is going 
on with these particular properties, as a perspective, in my 
opinion, I do think that the overall system, writ large, for 
providing project-based rental assistance is a sound system, 
and HUD has very powerful asset management tools and quality 
control tools. But it is clear, from this discussion so far, 
that better coordination, better execution, is needed to ensure 
that no property ever reaches this level of distress.
    In fact, I think the overwhelming majority of HUD-assisted 
rental housing is in pretty good shape, and it is just 
unfortunate that we have outliers. And it is also clear to me 
from the discussion that when the system for measuring 
performance, REAC, in particular, becomes called into question, 
then we do not really know exactly what the shape of the 
portfolio is. And so one of the things we need to do is to 
double down on that tool, and make sure that it is executed 
properly. It is a vital tool and we have to make sure that that 
is well done.
    But in my experience, as I look around and work with other 
owners, I think the majority of the owners do want to do a good 
job, and are doing a good job, and when they are not, we have 
to work with HUD to make sure that its enforcement tools are 
properly used.
    I want to go back in history just to bring out some basic 
principles. In the 1970s, HUD was the largest landlord in 
Boston,
because of distressed properties being foreclosed with 
subsidized mortgages that HUD controlled. And a group of 
tenants at an organization--at a property called Methunion 
Manor, went to Senator Edward Brooke and pointed out that their 
property was up for foreclosure, and under those rules, at the 
time, foreclosure for them meant displacement. And this is a 
neighborhood that was becoming gentrified and revitalized 
partly due to the Federal investment that created their own 
housing.
    And they went to Senator Brooke and said, ``This is an 
irony. Why should we be displaced when this neighborhood is 
just now improving and the Federal Government's rules are going 
to result in restoration of funds to the FHA fund but not to 
us?'' And Senator Brooke worked with Congress and with HUD to 
create legislation that gave HUD both a mandate and tools, and 
it was based on three principles: the property should have 
long-range repairs, there should be community engagement in the 
redevelopment process, and there should be a preservation of 
project-based rental
assistance.
    And those three principles have informed all of our other 
preservation activities since then. When subsidized mortgage 
prepayment became an issue because it allowed the deregulation 
of properties, those were the principles that were applied to 
create the LIHPRHA program, which resulted in the preservation 
of affordability of thousands of units.
    When Section 8 contract--long-term Section 8 contract 
expirations became an issue, again, those same principles were 
applied, and are still used today. And over time, there has 
been an increasing market focus on how those tools are applied, 
but they are sound tools and they should continue to be used in 
any solution to this problem of distressed housing.
    So that is the general point I want to make, and I think 
the focus on the long-term, the community engagement, and the 
preservation of project-based rental assistance are the really 
key things.
    Attached to my testimony is a piece that was written by the 
Preservation Working Group to HUD, to specifically address some 
things that we think HUD can do with the toolkit that it has. I 
think right now I would say----
    Senator Scott. Thirty seconds.
    Mr. O'Donnell. OK. Thank you. The main point I think I want 
to make is that HUD does have a very powerful toolkit. 
Sometimes what holds HUD back is this kind of what I call an 
on-off switch, that when things get really difficult with a 
property, the termination of the Section 8 contract is a very 
powerful tool. But HUD has intermediate tools as well, and by 
working with local communities and with groups like the 
Preservation Working Group, they can tailor and make more fine-
grain adjustments and bring owners into compliance without 
losing the subsidy, because----
    Senator Scott. Thank you.
    Mr. O'Donnell.----if you lose a subsidy, the tenants are 
going to be displaced.
    Senator Scott. Thank you.
    Senator Rubio has to preside so I am going to give you my 
first few minutes.
    Senator Rubio. Well, I thank you for your indulgence. I 
thank you all again for being here today, and I think there 
will be a broader conversation one day about the structure of 
the program in general, but right now we want to make the 
program we have in place work better.
    One of the things that we have learned in this process, and 
Ms. Grant, I am going to ask you about this, is one of the 
reasons why these tenants do not come forward--and we have 
heard this now on the three properties--is there is a level of 
intimidation and threats of eviction. And, in essence, you get 
hassled. If you start showing up in the newspaper and on 
camera--we have had tenants say, ``I do not want to be on 
camera because, you know, bad things happen to people around 
here that come forward and complain.''
    Ms. Grant, could you share with us a little bit about some 
of those impediments that you have faced? And also, related to 
that--some of the threats of eviction, the threats that come 
from the management company about not complaining too much, and 
also--and I do not know if this has been the reality in Eureka 
Gardens--you have also heard that, from time to time, the 
management
company will come in and give preferential treatment to certain 
tenants in exchange for them being kind of the voice of the 
tenants, in essence, the owner-sponsored tenant association 
president, who supposedly speaks on behalf of tenants.
    I know that is not the case in Eureka Gardens. We have 
heard about that on other properties, and therefore, they 
basically self-appoint the person they want to speak on behalf 
of the tenants, and these people think everything is great but 
they are getting the new refrigerator, and they are getting 
preferential treatment. I do not know if you saw any of that in 
Eureka Gardens beforehand. So if you have, we would love to 
hear about it, but in particular, the threats from management 
to tenants if they complain too much.
    Ms. Grant. Yes. You have--if you speak out or if you were 
bold enough to just go up there and say, ``Hey, this is my 
problem. You need to fix it or I am going to go to Legal Aid,'' 
or ``I am going to go to the news media,'' then it is like, 
``OK, well, I will give you a 10-day eviction notice so that 
you can get off the property,'' or it is a 10-day eviction 
notice for noncompliance, for whatever reason. It may not be 
for what they are complaining about. They will just find 
something and say, ``I am giving you a 10-day notice.''
    We have had residents just say, ``OK, they do not have a 
legitimate reason for giving me a 10-day notice.'' Then when 
they go to Legal Aid--because one of the--the management--the 
manager that was there before our new manager that is in place 
right now, she would just say, ``I know the big guy at Legal 
Aid and he is not going to do anything.'' Later on we found out 
that she did not know him and he does not like her. So when 
that was found out, then everybody went to Legal Aid, and so 
she got pissed off, you know, because now she does not have any 
leverage over these people.
    And the new manager, she does not say anything. If you feel 
like, you know, the issues that you have, then, you know, she 
will just say, ``OK. Well, this is what I feel is done, you 
know, that you have not complied or whatever, and I will give 
you a 10-day notice. Now you can either work on it or, you 
know, leave the property.'' But yes, we have had----
    Senator Rubio. So, basically, there have been instances and 
multiple cases at Eureka Gardens where the tenant complained 
too much, the management company would suddenly come up with a 
reason to----
    Ms. Grant. Right.
    Senator Rubio.----evict you, and that got around, everybody 
knew if you complained you were going to get an eviction 
notice.
    Ms. Grant. Exactly.
    Senator Rubio. Thank you.
    Senator Scott. Senator Nelson.
    Senator Nelson. Just a quick question.
    Ms. Grant. Yes, sir.
    Senator Nelson. Ms. Grant, what goes through your mind when 
you get a 10-day eviction notice, and you have got children 
that you have to provide a home for? What goes through your 
mind?
    Ms. Grant. Fright. You are frightened. You are scared. You 
do not know what to do next, because now you have to--your mind 
is going a million miles a minute. You are trying to figure out 
where I am going to go, who I am going to go stay with, or do I 
have any relatives to stay with, you know, because you have a 
lot of families that are just coming from out of town and this 
is the easiest place to get into. They do not have any family 
that lives in Florida. So they are trying to rely on people 
that they know, or maybe go to the shelter if one is open, so 
that they can try to provide a place. Or they will figure out a 
way of calling family and say, ``Hey, I need some money,'' or 
``I need this. They are about to put me out.''
    Senator Nelson. So to avoid being evicted----
    Ms. Grant. Mm-hmm.
    Senator Nelson.----because you have no place to go----
    Ms. Grant. Mm-hmm.
    Senator Nelson.----you keep quiet.
    Ms. Grant. Right.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Scott. Thank you, Senator Nelson, once again, for 
bringing this to light, along with Senator Rubio.
    Let me start my questions with Major Lewis. First, thank 
you for your service to your community as a law enforcement 
officer.
    Mr. Lewis. Thank you, sir.
    Senator Scott. Yes, sir. I would imagine--how long have you 
been in code enforcement, specifically?
    Mr. Lewis. I am not over code enforcement but I have 
participated in code enforcements investigation.
    Senator Scott. How long, on and off?
    Mr. Lewis. In this investigation, since 2012.
    Senator Scott. OK. So you have years of experience in this 
area?
    Mr. Lewis. Yes, sir.
    Senator Scott. What we are hearing today--how often do you 
see these types of situations, do you hear the types of 
comments from residents in different locations? Is this normal 
or is this an outlier?
    Mr. Lewis. Sir, this is absolutely not normal. In my area 
of command alone I have probably seven other similar housing 
areas, none of which have the problems that Stonybrook has.
    Senator Scott. So none. GMF----
    Mr. Lewis. GMF.
    Senator Scott.----the land owner, is consistently, it 
appears, finding themselves in precarious positions. Is that--
so this seems to be a--within a silo, something that is 
specific to GMF?
    Mr. Lewis. In my 19.5 years, yes, absolutely.
    Senator Scott. That is amazing. Thank you very much.
    Dr. Olsen, based on your expertise, how can Congress better 
structure or regulate HUD to provide assistance to people who 
find themselves in need of housing assistance? How do we 
improve this system?
    Mr. Olsen. Well, I think, broadly, the evidence indicates 
that the least costly way of providing housing assistance of a 
given quality is the housing voucher program. That is much less 
costly than project-based Section 8 and public housing. What 
this means is that for the amount of money we spend, we can 
serve many more people if we do it with vouchers. So that is 
what leads me to believe that we should really be trying to 
phaseout project-based assistance altogether. We should not 
renew use contracts. We should not create new projects.
    Ms. Grant says that the tenants want out. I think they 
should be given vouchers and let out. I think that the landlord 
will find that his property is not so valuable if he does not 
have government subsidies going to it.
    Senator Scott. Thank you very much, and I should say to 
Senator Menendez, thank you for helping with the legislation 
that you and I passed to provide more vouchers for more folks 
so that they can determine where they want to live, as folks 
find themselves in a situation, as does Ms. Grant.
    Ms. Grant, you have been there for 6 years? Five years?
    Ms. Grant. Six years, come the 24th of this month.
    Senator Scott. Yes, ma'am. Thank you for being here this 
morning as well.
    Ms. Grant. You are welcome. Thank you.
    Senator Scott. Thank you for sharing your story.
    Ms. Grant. Yes.
    Senator Scott. I cannot imagine the pain and the challenges 
that you have faced, and the sense of intimidation that comes 
your way on a consistent basis.
    If you could change just a few things about where you live, 
can you give me a quick list of things that you would like to 
see better, obviously?
    Ms. Grant. I want to say everything--management, the inside 
of the apartments, because they--those apartments are 50-years 
old, and I found out that the last time they had done anything 
to them was when they were built. So the entire apartment 
complex needs to be redone.
    Instead of having gas right now--because the pipes are old, 
and when I say old, the pipes that you show behind you, nothing 
compared to what I saw behind my toilet, when they opened my 
wall. Nothing. That is nothing compared to the rust that is 
peeling off of the pipes. And if you peel too much, the pipes 
may burst.
    Senator Scott. Thank you.
    Major Lewis, do you have any specific changes or 
suggestions that you would like to see with the way that HUD 
works with GMF, from your years of experience in code 
enforcement?
    Mr. Lewis. I think there needs to be a closer relationship. 
I think there has to be accountability. I think people have to 
care. I know that HUD is aware of the incidents that took place 
at Stonybrook, but yet they somehow were able to continue from 
2013 to present day. And I think maybe better coordination, 
more communication, I think would be helpful----
    Senator Scott. Thank you, Major.
    Mr. Lewis.----to start.
    Senator Scott. Yes, sir. Thank you.
    I will say that I am certainly pleased that other locations 
within the HUD housing apparatus or umbrella are nothing like 
this, which is really good news. I do wish that HUD was here to 
explain and share with us their success stories as well as 
their challenges, and what they are doing to remedy the 
situation. Unfortunately, with their absence, not only does it 
fuel my frustration but it also brings a negative light unto 
the HUD agency.
    Thank you very much.
    Mr. Lewis. Thank you.
    Senator Scott. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, and thank you 
all for your testimony.
    Let me ask you, Major Lewis--and again, thank you for your 
service to your community and to the State. Global Ministries--
do we know who they are?
    Mr. Lewis. It is a pastor. I believe a pastor--a minister 
owns it. It is a religious group that owns the property.
    Senator Menendez. All right. It suggests so from its name 
but I did not want to presume that. Well, that type of ministry 
we do not need.
    Mr. Lewis. It is a pastor that owns it.
    Senator Menendez. Well, certainly that type of ministry we 
do not need.
    Let me ask Ms. Grant, Ms. Grant, did you have any knowledge 
that you have the right, as a tenant, and maybe were never 
told, but to engage HUD and to--I do not know if you ever, in 
your efforts to try to improve your situation, did you know 
that you could engage HUD? Did you try to engage HUD at all?
    Ms. Grant. Well, not before we formed the Tenant 
Association. I had no idea. I wanted to find out, or at least 
figure out who I can call on to get help, because at this point 
I have never went through anything like this, so to have--to 
say we need help or say, ``Hey, can you help me?'' I did not 
even know where to start.
    Senator Menendez. Yeah, and that is not unusual, and a 
matter of fact, Mr. O'Donnell, one of the elements of your 
testimony speaks to residents--natural partners in identifying 
properties with chronic problems, and it specifically, in the 
letter attached to your testimony made part of the record, it 
urges HUD to provide residents with more opportunity to engage 
in REAC inspections and management and occupancy reviews. And I 
have heard from conversations myself, with tenant advocates, 
that residents are often not aware of their recourse in such a 
set of problems, and they do not know that they can reach out 
for the performance-based contract administrator.
    So is not there a better way to engage residents? They 
should be, probably, the best eyes and ears of what is really 
happening at a location.
    Mr. O'Donnell. Yeah, tenants are the best eyes and ears, 
and I think there are certainly already in place anti-
harassment policies, but I think we need to have a better 
conversation about the best way to involve residents in those 
oversight procedures like REAC.
    Senator Menendez. Major Lewis, in the process of your 
investigations and actions, did you have opportunity to engage 
HUD at a local level?
    Mr. Lewis. Just the regional level. The Regional Level 
Director came up.
    Senator Menendez. And were they responsive?
    Mr. Lewis. The problem still exists today.
    Senator Menendez. Uh-huh.
    Mr. Lewis. They were responsive with their comments 
regarding that they spoke with GMF, and that they were trying 
to ensure compliance. But for whatever reason, the problems 
exist to this day.
    Senator Menendez. So they were responsive without results.
    Mr. Lewis. Exactly.
    Senator Menendez. OK. Well, that is not responsive.
    Mr. O'Donnell, let me--I am a big advocate, as the Chairman 
said--we joined together to pass some housing reforms that 
include more vouchers. However, I am always thinking, because 
of--I grew up poor, in a tenement, and it was not a tenement 
with HUD subsidy, so I know what it is to live in a place that 
stinks, and I do not think anybody should have to live like 
that. But I also understand that preserving affordable housing 
stock is incredibly important to protect vulnerable families. 
And I am struck that Dr. Olsen proposes, in his testimony, 
wholesale phase-out of project-based rental assistance in favor 
of a system made up exclusively of
vouchers.
    Now I have, and always will, support the tenant-based 
voucher programs but I know a lot of parts of this country 
where that voucher does not go very far, and where the very 
issue of where that voucher is taken, in terms of the housing 
that exists, may equally be substandard.
    So the issue here seems to be more of enforcement, and I am 
glad to hear that Major Lewis pointed out that there are many 
other similar locations, but not with the problems of 
Stonybrook here, or of this particular location. Can we rely--
people who are elderly, families, people with disabilities--if 
we, quote, rely only on market mechanisms to achieve the social 
goals of providing affordable housing?
    Mr. O'Donnell. Well, I could talk all day about that. That 
is a really powerful question.
    Senator Menendez. Well, neither the Chairman or are going 
to give you all day.
    [Laughter.]
    Mr. O'Donnell. No, I think it is an extremely important 
question. First of all, the market does not provide for all 
needs, especially for vulnerable people, and part of the role 
of government is to step in where the market does not satisfy 
everybody's needs. That said, I am a big fan of vouchers, and 
respectfully, also do not agree that they are the full 
solution.
    Simple example. Very recently, in this world of Section 8 
housing, people say there are two things that will never 
happen. One is that a landlord, in their right mind, would 
never get rid of a Section 8 contract because it supplies their 
rental stream, as Dr. Olsen is pointing out, especially in a 
weak market. Second, nobody would ever displace elderly 
tenants.
    Well, in the city of Detroit, recently, an elderly Section 
8 property had its Section 8 contract come up for renewal and 
the owner elected to not renew it and to displace all those 
tenants. You had elderly tenants displaced in a weak market, 
and those folks had a really hard time finding a new place to 
live, and it is very stressful, as you know, for any kind of 
move to be required like that.
    So there is no simple solution for those folks with a 
voucher
formula.
    And again, going back to the Methunion example, but it is 
still true today, that neighborhood, in South End of Boston, is 
one of the most desirable neighborhoods in the United States, 
not just Boston, and the only poor people who can afford to 
live in the South End are people who have project-based 
subsidies, because the market rent in South End is too high for 
a voucher to work. So the only Section 8 that works there is a 
project-based Section 8 that pays market rent. They do not pay 
over market, but they pay market.
    Senator Menendez. I appreciate that answer, and----
    Mr. O'Donnell. And one of the other things is that Section 
8 vouchers are very difficult to use in other communities. We 
have a great problem here in Massachusetts getting communities 
to
accept low-income housing of any type, and all around the 
country there is discrimination against people because they 
hold vouchers. In Massachusetts you cannot do that because you 
cannot discriminate against voucher holders, but in most States 
you can. There are cultural barriers, racial barriers to 
acceptance of vouchers. It is a very difficult problem to rely 
on that.
    Senator Menendez. Thank you for your answer.
    I will just close by saying, in my own experience, there 
are
communities that were, at one time, depressed, in terms of 
their situation, and then they gentrified and became the Gold 
Cost, as we say, along New Jersey. Individuals who sometimes 
live for long times in their lives, many on a Section 8 
project-based situation, and suddenly--and then those who went 
to vouchers, found that it was impossible to live in the 
communities where they and their families had lived because the 
housing markets prices rose so dramatically that the voucher, 
you know, offered them nothing, and therefore they were forced 
out.
    That is not a market mechanism that I think, at the end of 
the day. So it is a mix, in my view, of the vouchers, which I 
have strongly supported, and at the same time, having the 
appropriate enforcement of project-based subsidies that will 
give us the mix that we need for the affordable housing I think 
we deserve in the country.
    Thank you, Mr. Chairman.
    Senator Scott. I want to say to all the panelists thank you 
for investing your time this morning, and I certainly am not 
sure that--Dr. Olsen said that vouchers were our panacea, that 
would solve all the problems that we have with HUD. Certainly 
it is another alternative, another avenue forward, another way 
forward. And Mr. O'Donnell, thank you for your comments this 
morning, as well. Major Lewis, again, thank you for being here. 
Ms. Grant, you can come on back home to Charleston any time you 
want to. We appreciate you being before the panel.
    I will say that there are many issues in the housing 
footprint that we ought to engage in. Growing up in poverty, in 
a single-parent household myself, the issue of housing is such 
an important foundational issue, so that children who go to 
school can come home and learn in a safe environment, that 
adults who want to continue to improve their lives can see a 
path forward.
    There is such a project in Spartanburg, South Carolina, 
called the Northside Project, that is helping to reduce 
gentrification by having the current residents be a part of the 
board of directors and create a vision for how to do housing in 
a new and inventive--
innovative way. It is a fabulous project that needs more 
attention, and it does, in fact, blend vouchers with places 
like--hopefully not exactly like where you live, Ms. Grant--but 
places that are for apartment-type settings, as well as, then, 
community housing. So a person can stay in the same 
neighborhood and live the evolution of improving their plight.
    Thank you all for bringing light to this issue and doing it 
in such a professional manner.
    Any Member that may want to provide questions for the 
record would have up to 7 days to do so.
    This hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
               PREPARED STATEMENT OF SENATOR BILL NELSON
    Mr. Chairman, Ranking Member Menendez, and Members of the 
Committee:

    Thank you for inviting me here today to talk about what Senator 
Rubio and I saw when we visited Windsor Cove, a subsidized housing 
facility in Orlando, and to talk about the bill we filed earlier this 
year in response to the problems we found at that facility and other 
subsidized properties, like Eureka Gardens and Washington Heights in 
Jacksonville.
    The conditions at these properties are unacceptable. I challenge 
the owners of these properties to spend a week in their own buildings. 
I doubt any of them will take me up on that though.
    When Senator Rubio and I visited Windsor Cove apartments in 
Orlando, we saw evidence of severe water damage. With so much water 
sitting everywhere, it's no wonder the tenants are constantly battling 
against instances of mold and roach infestation.
    When I stepped into one of the apartments, the carpeting was so 
saturated with water that it made a squishing sound. Think about that.
    Since that visit, we learned Federal inspectors have cited the 
property for various housing code violations, including broken smoke 
detectors, exposed electrical wires, blocked fire exits, leaky water 
valves, window cracks, missing floor tiles, and water seeping in from 
roof damage--just to name a few.
    The property was given a failing grade in April, 10 months after 
receiving a nearly perfect score from a contract inspector working for 
the Department of Housing and Urban Development. HUD invalidated that 
previous score only after receiving a barrage of complaints from 
tenants at their local office. The contractor was then barred from 
performing further inspections for the agency.
    I appreciate the corrective action taken by HUD, but it's not 
enough.
    Residents had to wait 10 months for HUD to get it right and perform 
a new inspection--and even then they had to wait an extended period for 
the owner to appeal the new inspection results before HUD could demand 
remediation.
    HUD clearly needs to do a better job to find these problems before 
they reach a boiling point. And the owners of these properties need to 
be held accountable for their shortcomings.
    This isn't the case of one housing complex or one property owner. 
Several properties around the country are falling victim to the problem 
of lax oversight.
    For example, according to one report, tenants at Goodwill Village 
in Memphis, Tennessee had to deal with an onslaught of snakes--which 
were attracted to the property because of a rat infestation.
    It would take too long for me to talk about every failing property 
in the country, but I think we can all agree that one is too many.
    So I introduced the Housing Accountability Act with Senator Rubio 
to give tenants a voice and to remove the over dependence on 
unscrupulous property managers and faulty inspections to clue HUD into 
what's going on at these properties.
    The bill does four main things:

  <bullet>  First, it codifies in law--rather than through regulation 
        or contract--that subsidized property owners have to maintain 
        safe and sanitary conditions at their properties. This should 
        be common sense, but unfortunately we need to put the fear of 
        law into some of these owners.

  <bullet>  Second, it establishes a process for independent contract 
        administrators to survey tenants twice a year in order to 
        identify persistent problems relating to the physical condition 
        of the properties or the performance of the building's 
        management.

     Currently, HUD requires tenants to file complaints with the 
        building's management--who may not be responsive or may use the 
        threat of eviction to intimidate tenants. The survey would act 
        as a check on management, as well as on the property owners.

  <bullet>  Third, the bill would create a new penalty for owners that 
        fail to maintain safe and sanitary conditions, or are 
        repeatedly referred to HUD for remediation under the tenant 
        survey previously mentioned.

  <bullet>  Last, the bill requires HUD to issue a report examining the 
        capitalization of all subsidized properties in the country, 
        particularly with regard to the use of taxpayer funds for 
        purposes unrelated to the subsidized housing.

     We've heard stories that some of these landlords pocket the 
        subsidy they get from HUD, while refusing to make needed 
        repairs.

     We need to know if that's indeed what's happening. If it is, then 
        we need to tighten the controls on these property owners. 
        Taxpayers fund these programs to look out for those in need, 
        not to pad the wallets of real estate companies looking to make 
        a quick buck.

    Last--I've said this before but it begs repeating--no American 
should have to live in the conditions that we've seen at Windsor Cove 
and Eureka Gardens. We can't let this continue. I thank the Committee 
for taking the time to discuss this very important issue. Thank you.
                                 ______
                                 
               PREPARED STATEMENT OF SENATOR MARCO RUBIO
  <bullet>  Thank you, Chairman Scott, for holding today's hearing on 
        this important issue.

  <bullet>  Providing safe and sanitary conditions for people receiving 
        housing assistance is central to HUD's mission, so it's 
        disturbing to see taxpayer dollars wasted like this, and 
        disappointing that HUD failed to provide a witness today.

  <bullet>  I would like to welcome two witnesses that will be 
        testifying on the second panel, Ms. Tracy Grant and Major Josh 
        Lewis.

  <bullet>  Both of these Floridians have done much to help my State 
        and the entire country through their work to make these 
        conditions known, and I want to thank them for taking the time 
        to travel up to Washington to testify before this Committee 
        today.

  <bullet>  I became involved with this situation about a year ago, 
        when the tenants of Eureka Gardens took their case to the 
        public. These tenants bravely made their voices heard while 
        they faced threats of eviction from the landlord, Global 
        Ministries Foundation (GMF).

  <bullet>  Since then, residents at other GMF properties and at 
        derelict Section 8 properties around the State have spoken of 
        their troubles and I am proud to represent their voices here 
        today.

  <bullet>  When I visited Eureka Garden Apartments in Jacksonville, I 
        saw crumbling staircases, exposed electrical wires, and 
        boarded-up windows that would trap a child inside if there was 
        a fire.

  <bullet>  I saw an apartment that hadn't been painted in 13 years. I 
        saw pieces of wood with exposed nails put up in place of a 
        door, in a unit with small children.

  <bullet>  This was all evident even after GMF rushed crews to the 
        property to make cosmetic repairs just 48 hours before I 
        arrived.

  <bullet>  I spoke with tenants who had been through a lot over the 
        last few years and heard stories like some of the ones you will 
        hear Ms. Grant tell today--stories of neglect, crime, and 
        bureaucratic indifference from HUD.

  <bullet>  When Senator Nelson and I visited Windsor Cove Apartments 
        in Orlando, we saw standing water in apartments, damaged roofs, 
        collapsed ceilings, and breathed air that reeked of mold.

  <bullet>  We spoke with residents who had lived there for multiple 
        years now, trapped in a facility with conditions that no one 
        should have to endure.

  <bullet>  When I visited Stonybrook Apartments in Riviera Beach, I 
        saw even more of the same.

  <bullet>  An unwillingness to repair these properties is 
        unfortunately par-for-the-course for GMF.

  <bullet>  They willfully neglect the well-being of their tenants, as 
        you will hear Major Lewis testify.

  <bullet>  These are the three GMF properties I have visited in the 
        State of Florida. In each case, HUD has enabled fraud and abuse 
        to continue, all while taxpayer money continues to flow into 
        the pockets of these slumlords.

  <bullet>  Bureaucratic red tape, miscommunication, and a lack of 
        urgency have plagued this Administration's response.

  <bullet>  But nothing displays how broken this program is better than 
        HUD's inspection process.

  <bullet>  The passing score in HUD's inspection process is a 60 out 
        of 100.

  <bullet>  If a property scores above this threshold, HUD gives it the 
        stamp of approval, declaring that the conditions are ``decent, 
        safe, and sanitary''--an approval that traps tenants at the 
        property and keeps money flowing to the landlord.

  <bullet>  What I have discovered in Florida, however, is that HUD has 
        compromised the integrity of its standards.

  <bullet>  Last year, the inspection of Windsor Cove gave it a passing 
        score of 90 points out of 100.

  <bullet>  The next inspection, which occurred a week after Senator 
        Nelson and I visited the property, gave it a failing score of a 
        48.

  <bullet>  That inspection found a projected 86 life-threatening 
        deficiencies on the property. From one score to the next, this 
        kind of inconsistency is beyond belief.

  <bullet>  Eureka Gardens received a score of over 80 out of 100 
        during the summer inspection that occurred just before the 
        tenants brought forth their complaints.

  <bullet>  After months of back-and-forth repairs, hospitalizations 
        from gas leaks, alleged lead poisoning, and incessant mold 
        outbreaks, HUD's follow-up inspection gave the property a score 
        of 62 out of 100.

  <bullet>  Just barely passing, if you can imagine that.

  <bullet>  Right after that inspection, in a letter sent to GMF after 
        visiting the property, the Deputy Assistant Secretary for 
        Multifamily Housing wrote that ``HUD officials do not believe 
        the property would currently pass another REAC inspection,'' 
        despite the fact that an inspection had just happened barely a 
        month before.

  <bullet>  The slumlords at Global Ministries Foundation caused this 
        problem, but HUD enabled it.

  <bullet>  And the twin vices that so often afflict massive Federal 
        welfare programs--bureaucracy and corruption--have prevented 
        the kind of action necessary to protect the tenants, and 
        allowed this crisis to go on for far too long.

  <bullet>  This is why I introduced and passed three amendments to the 
        HUD appropriations legislation the Senate considered back in 
        May.

  <bullet>  These amendments would enact a clear, 15-day deadline for 
        property owners to respond to physical deficiencies, make 
        tenant protection vouchers available to residents living at 
        properties with imminent health and safety risks like GMF's 
        properties, and order a nationwide audit of HUD's inspection 
        process.

  <bullet>  Senator Nelson and I have also introduced legislation that 
        would enact a tenant survey in order to better identify problem 
        properties like GMF's.

  <bullet>  The problems found at these properties are not limited to 
        the State of Florida. GMF owns properties in Alabama, Indiana, 
        Louisiana, North Carolina, New York, Georgia, and Tennessee--
        where similarly bad conditions have led to Federal 
        investigations.

  <bullet>  GMF owns over 5,000 taxpayer-funded units across the 
        Nation.

  <bullet>  And beyond GMF, if HUD is falsely certifying the living 
        conditions at this many properties for one organization, then 
        it is probably doing the same thing for many other entities.

  <bullet>  I look forward to hearing from today's witnesses about the 
        effects of GMF's fraud and HUD's neglect, and hope we can 
        continue working together to investigate GMF and pass 
        legislation to fix HUD's faulty inspection process.
                                 ______
                                 
                   PREPARED STATEMENT OF EDGAR OLSEN
    Professor, Economics and Public Policy, University of Virginia *
---------------------------------------------------------------------------
     * This paper was submitted for the Hearing on Oversight of the HUD 
Inspection Process and reflects the views of its author. It does not 
represent the official position of the University of Virginia. The 
University does not have an official position on low-income housing 
policy. It will appear in an American Enterprise Institute volume on 
means-tested programs Helping the Poor Better edited by Robert Doar.
---------------------------------------------------------------------------
                           September 18, 2016
        Reducing Poverty by Reforming Housing Policy
    Low-income housing assistance is fertile ground for reforms that 
would provide better outcomes with less public spending. The majority 
of current recipients are served by programs whose cost is enormously 
excessive for the housing provided. Phasing out these programs in favor 
of the system's most cost-effective program would ultimately free up 
the resources to provide housing assistance to millions of additional 
people and reduce taxes.\1\
---------------------------------------------------------------------------
    \1\ Edgar O. Olsen, ``The Effect of Fundamental Housing Policy 
Reforms on Program Participation,'' University of Virginia, January 14, 
2014, http://eoolsen.weebly.com/uploads/7/7/9/6/7796901/
ehpfinaldraftjanuary2014coverabstracttextreferencetablesonlineappendices
.pdf.
---------------------------------------------------------------------------
    Furthermore, the current system of low-income housing assistance 
provides enormous subsidies to some households while offering none to 
others that are equally poor, and it provides subsidies to many people 
who are not poor while offering none to many of the poorest. Avoiding 
these excessive subsidies and focusing assistance on the poorest 
families will contribute further to poverty alleviation. Well-designed 
reforms of the current system of low-income housing assistance would 
substantially alleviate poverty with less public spending.
Overview of Current System
    To appreciate the potential for alleviating poverty through housing 
policy reforms, it is essential to know the nature of current programs 
and the evidence about their performance.\2\ The bulk of low-income 
housing assistance in the United States is funded by the Federal 
Government through a large number of programs with a combined cost of 
more than $50 billion a year. Unlike other major means-tested transfer 
programs in the United States, low-income housing programs do not offer 
assistance to many of the poorest families that are eligible for them. 
Eligible families that want assistance must get on a waiting list.
---------------------------------------------------------------------------
    \2\ For a detailed overview of the current system of low-income 
housing assistance and a summary of the evidence, see Edgar O. Olsen, 
``Housing Programs for Low-Income Households,'' in Means-Tested 
Transfer Programs in the U.S., ed. Robert Moffitt (Chicago: University 
of Chicago Press, 2003); and John C. Weicher, Housing Policy at a 
Crossroads: The Why, How, and Who of Assistance Programs (Washington, 
DC: AEI Press, 2012). For a more detailed account of the evidence, see 
Edgar O. Olsen and Jeff Zabel, ``U.S. Housing Policy,'' in Handbook of 
Regional and Urban Economics, ed. Giles Duranton, J. Vernon Henderson, 
and William Strange, vol. 5 (Amsterdam: North-Holland, 2015).
---------------------------------------------------------------------------
    Most low-income housing assistance in the United States is for 
renting a unit, and the most important distinction among rental housing 
programs is whether the subsidy is attached to the dwelling unit 
(project-based assistance) or the assisted household (tenant-based 
assistance). If the subsidy is attached to a rental dwelling unit, 
families must accept the particular unit offered to receive assistance 
and lose the subsidy if they move, unless they obtain alternative 
housing assistance before moving.
    Each family offered tenant-based assistance is free to occupy any 
unit that meets the program's minimum housing standards, that rents for 
less than the program's ceiling, that is affordable with the help of 
the subsidy, and whose owner is willing to participate in the program. 
Families retain the subsidy if they move to another unit meeting these 
conditions. Figure 1 indicates the percentage of households that 
receive rental assistance of various types.
Figure 1. Percentage of Households That Receive Each Type of Rental
        Assistance
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Source: Author's calculations based on 2013 American Housing Survey.

Note: Includes assistance from U.S. Department of Housing and Urban 
Development and other sources.

    The Department of Housing and Urban Development (HUD) housing 
voucher program is the only significant program that provides tenant-
based assistance. It is the second-largest low-income housing program, 
serving about 2 million households and accounting for about 32 percent 
of all households that receive low-income rental assistance.
    There are two broad types of project-based rental assistance: 
public housing and privately owned subsidized projects. Both types have 
usually involved constructing new projects. In almost all other cases, 
they have required substantial rehabilitation of existing buildings. 
Many of these programs no longer subsidize the construction of 
projects, but most projects built under them still house low-income 
households with the help of subsidies for their operation and 
renovation. Overall, project-based assistance accounts for about 68 
percent of all households that receive low-income rental assistance.
    Public housing projects are developed and operated by local public 
housing
authorities established by local governments, albeit with substantial 
Federal subsidies and regulations that restrict their choices. For 
example, regulations limit the circumstances under which housing 
projects can be sold and what can be done with the proceeds. In the 
public housing program, government employees make most of the decisions 
that unsubsidized for-profit firms would make in the private market--
what to build, how to maintain it, and when to tear it down. Decisions 
about where to build projects have been heavily influenced by local 
political bodies. The public housing stock has declined by about 
400,000 units since its peak in 1991. About 1 million households live 
in public housing projects.
    Government agencies also contract with private parties to provide 
housing in subsidized projects. Most are for-profit firms, but not-for-
profits have a significant presence. The largest programs of this type 
are the IRS's Low-Income Housing Tax Credit, HUD's Section 8 New 
Construction and Substantial Rehabilitation and Section 236 Rental and 
Cooperative Housing for Lower-Income Families programs, and the U.S. 
Department of Agriculture's Section 515 and 521 programs. Under these 
programs, in exchange for certain subsidies, private parties agree to 
provide rental housing meeting certain standards at restricted rents to 
eligible households for a specified number of years.
    None of these programs provide subsidies to all suppliers who would 
like to participate. This is highly relevant for their performance. In 
general, subsidies to selected sellers of a good have very different 
effects than subsidies to all sellers. Subsidies to selected sellers 
lead to excessive profits and much greater wasteful rent seeking. About 
4 million households live in projects of this type.
Performance of U.S. Low-Income Housing Programs
    Many aspects of the performance of low-income housing programs have 
been studied, such as their effects on recipients' labor earnings and 
the types of neighborhoods occupied by them.\3\ We certainly do not 
have evidence on all aspects of performance for all programs, and the 
evidence leaves much to be desired in many cases. However, we cannot 
avoid making a decision about reforms until we have excellent evidence 
on all aspects of performance for all programs. Enough evidence exists 
to give policymakers confidence that certain changes would move the 
program in the right direction. Making no change in current policies is 
a decision.
---------------------------------------------------------------------------
    \3\ Olsen and Zabel, ``U.S. Housing Policy.''
---------------------------------------------------------------------------
    Of all the differences in the performance of various methods for 
delivering housing assistance to low-income families, differences in 
cost-effectiveness are by far the most consequential for poverty 
alleviation. Evidence on housing programs' performance indicates that 
project-based assistance is much more costly than tenant-based 
assistance when it provides equally good housing. These studies define 
equally good housing to be housing that would rent for the same amount 
in the same locality in the unsubsidized market. This measure accounts 
for the desirability of the neighborhood and the housing itself. In the 
best studies, the estimated magnitude of the excess cost is 
enormous.\4\
---------------------------------------------------------------------------
    \4\ For a detailed summary of the evidence on the cost-
effectiveness of low-income housing programs, see Edgar O. Olsen, 
``Getting More from Low-Income Housing Assistance,'' Brookings 
Institution, September 2008, http://www.brookings.edu/papers/2008/
09_low_income_housing
_olsen.aspx.
---------------------------------------------------------------------------
    The best study of Section 8 New Construction and Substantial 
Rehabilitation, HUD's largest program that subsidized the construction 
of privately owned projects, found an excess total cost of at least 44 
percent.\5\ That is, the total cost of providing housing under this 
program was at least 44 percent greater than the total cost of 
providing equally good housing under the housing voucher program. This 
translates into excessive taxpayer cost of at least 72 percent for the 
same outcome. It implies that housing vouchers could have served all 
the people served by this program equally well and served at least 72 
percent more people with the same characteristics without any increase 
in public spending.
---------------------------------------------------------------------------
    \5\ James E. Wallace et al., Participation and Benefits in the 
Urban Section 8 Program: New Construction and Existing Housing, vol. 1 
and 2 (Cambridge, MA: Abt Associates, 1981).
---------------------------------------------------------------------------
    The best study indicates even larger excess costs for public 
housing.\6\ More recent evidence has confirmed the large excess cost of 
the Section 8 New Construction and Substantial Rehabilitation Program, 
and U.S. General Accounting Office (GAO) studies have produced similar 
results for the major active construction programs: LIHTC, HOPE VI, 
Section 202, Section 515, and Section 811.\7\ In contrast, a succession 
of studies over the years have found that the total cost of various 
types of tenant-based housing assistance have exceeded the market rent 
of the units involved by no more than the modest cost of administering 
the program.\8\
---------------------------------------------------------------------------
    \6\ Stephen K. Mayo et al., Housing Allowances and Other Rental 
Assistance Programs--A Comparison Based on the Housing Allowance Demand 
Experiment, Part 2: Costs and Efficiency, Abt Associates Inc., 1980.
    \7\ Meryl Finkel et al., Status of HUD-Insured (or Held) 
Multifamily Rental Housing in 1995: Final Report, Abt Associates Inc., 
May 1999, Exhibit 5-1; Mark Shroder and Arthur Reiger, ``Vouchers 
Versus Production Revisited,'' Journal of Housing Research 11, no. 1 
(2000): 91-107; U.S. General Accounting Office, Federal Housing 
Programs: What They Cost and What They Provide, GAO-01-901R, July 18, 
2001, http://www.gao.gov/products/GAO-01-901R; and U.S. General 
Accounting Office, Federal Housing Assistance: Comparing the 
Characteristics and Costs of Housing Programs, GAO-02-76, January 31, 
2002, http://www.gao.gov/products/GAO-02-76.
    \8\ Mayo et al., Housing Allowances and Other Rental Assistance 
Programs--A Comparison Based on the Housing Allowance Demand 
Experiment, Part 2: Costs and Efficiency; Wallace et al., Participation 
and Benefits in the Urban Section 8 Program: New Construction and 
Existing Housing; Mireille L. Leger and Stephen D. Kennedy, Final 
Comprehensive Report of the Freestanding Housing Voucher Demonstration, 
vol. 1 and 2 (Cambridge, MA: Abt Associates Inc., 1990); and ORC Macro, 
Quality Control for Rental Assistance Subsidies Determination, U.S. 
Department of Housing and Urban Development, Office of Policy 
Development and Research, 2001, chap. 5.
---------------------------------------------------------------------------
    The preceding evidence on the cost-effectiveness of project-based 
assistance applies to units built or substantially rehabilitated under 
a subsidized construction program and still under their initial use 
agreement. Evidence from the Mark-to-Market program indicates the 
excessive cost of renewing use agreements for privately owned 
subsidized projects. In most cases, owners are paid substantially more 
than market rents for their units.\9\
---------------------------------------------------------------------------
    \9\ For a summary of the evidence, see Olsen, ``Getting More from 
Low-Income Housing Assistance.'' 14.
---------------------------------------------------------------------------
    The results concerning the cost-effectiveness of different housing 
programs illustrate the virtue of substantially relying on market 
mechanisms to achieve social goals, especially the virtue of forcing 
sellers to compete for business. Under a program of tenant-based 
assistance, only suppliers who provide housing at the lowest cost given 
its features can remain in the program. If the property owner attempts 
to charge a voucher recipient a rent in excess of the market rent, the 
tenant will not remain in the unit indefinitely because he or she can 
move to a better unit without paying more for it. Under programs of 
project-based assistance, suppliers who receive payments in excess of 
market rents for their housing can remain in the program indefinitely 
because their tenants would lose their subsidies if they moved. These 
suppliers have a captive audience.
    Recent events in Washington, DC, vividly illustrate the pitfalls of 
providing subsidies to selected suppliers.\10\ The mayor has proposed 
spending about $4,500 per month per apartment to lease units in 
buildings owned mainly by contributors to her campaign. This cost does 
not include services to these families, and most units are dormitory 
style. It has been estimated that these agreements would increase the 
market value of the properties tenfold. At the same time, families with 
HUD's Section 8 housing vouchers have been able to find regular two-
bedroom apartments for rents around $1,600 a month. These are better 
than average rental units that meet HUD's housing standards. The median 
rent of two-bedroom units in DC is about $1,400.
---------------------------------------------------------------------------
    \10\ Aaron C. Davis and Jonathan O'Connell, ``Shelter Plan May 
Benefit Mayor's Backers,'' Washington Post, March 17, 2016; and Fenit 
Nirappil, ``Shelters' Cost Stun Some DC Lawmakers,'' Washington Post, 
March 18, 2016.
---------------------------------------------------------------------------
    The evidence on cost-effectiveness argues strongly for phasing out 
project-based assistance in favor of tenant-based assistance. This 
would contribute greatly to poverty alleviation without spending more 
money by increasing the number of poor families that receive housing 
assistance.
    Phasing out project-based assistance will contribute to poverty 
alleviation for another reason. Under the current system, the best 
units in new projects in the best locations have very high market 
rents. They are much more desirable than the average rental unit. The 
worst units in the oldest projects in the worst locations have very low 
market rents. Identical families living in the best and worst projects 
pay the same rent. Therefore, the current system provides enormous 
subsidies to some families and small subsidies to others in the same 
economic circumstances.
    Equalizing these subsidies would contribute to poverty alleviation. 
Under the housing voucher program, identical households within the same 
housing market are offered the same assistance on the same conditions. 
Therefore, providing incremental housing assistance in the form of 
housing vouchers rather than subsidized housing projects would 
contribute to poverty alleviation by giving larger subsidies to the 
families that would have received the smallest subsidies in the absence 
of reform and smaller subsidies to similar families that would have 
received the largest subsidies.
    These inequities have not been carefully documented but are obvious 
to all knowledgeable observers. A recent segment on PBS NewsHour 
revealed that $500,000 had been spent per apartment to build a housing 
project for the homeless in San Francisco.\11\ This is expensive even 
by Bay Area standards. The median value of owner-occupied houses in the 
San Francisco metro area was $558,000, and the median household income 
of their occupants was $104,000. So this government program provided 
apartments to the poorest families that were almost as expensive as the 
houses occupied by the average homeowner.
---------------------------------------------------------------------------
    \11\ PBS NewsHour, aired October 9, 2013 (New York, MGM 
Television).
---------------------------------------------------------------------------
    Ensuring that the homeless occupy housing meeting reasonable 
minimum standards does not require anything like the amount of money 
spent on these units. More than 20 percent of owner-occupied houses in 
the San Francisco area sell for less than $300,000. Furthermore, almost 
half of the families in the area are renters whose median income is 
about $50,000. They live in much less expensive units than homeowners.
    We do not need to build new units to house the homeless. They can 
be housed in satisfactory existing units at a much lower taxpayer cost. 
More than 6 percent of the dwelling units in the area were vacant at 
the time.
    In Portland, Oregon, where the median value of owner-occupied 
houses was $249,000, $360,000 per apartment was spent to build another 
housing project for the homeless.\12\ These cases are not anomalies. 
The HUD website is filled with photographs of such housing. The desire 
of the people involved in the current system to provide the best 
possible housing for their clients is understandable. However, this is 
not costless. Dollars spent on these high-cost projects are dollars not 
spent providing housing to more people.
---------------------------------------------------------------------------
    \12\ Peter Korn, ``Police threaten complaint as calls mount at the 
commons,'' Portland Tribune, January 9, 2014.
---------------------------------------------------------------------------
    Tenant-based assistance has other important advantages in addition 
to its greater equity and its much lower cost for providing equally 
desirable housing. For example, it allows recipients to choose housing 
that better suits their preferences and circumstances, such as living 
close to their jobs. This increases their well-being without increasing 
taxpayer cost.
    In contrast to occupants of subsidized housing projects, voucher 
recipients have chosen to live in neighborhoods with lower poverty and 
crime rates. Susin found that public housing tenants live in census 
tracts with poverty rates 8.8 percentage points higher than in the 
absence of assistance, tenants in HUD-subsidized privately owned 
projects live in tracts with poverty rates 2.6 percentage points 
higher; and voucher recipients live in tracts with poverty rates 2.3 
percentage points lower.\13\ Michael C. Lens, Ingrid Gould Ellen, and 
Katherine O'Regan found that occupants of tax-credit projects live in 
neighborhoods with crime rates about 30 percent higher than voucher 
recipients and only slightly lower than the crime rates in public 
housing neighborhoods.\14\ Because voucher recipients have much more 
choice concerning the location of their housing, this suggests that 
subsidized housing projects are poorly located from the viewpoint of 
recipient preferences.
---------------------------------------------------------------------------
    \13\ Scott Susin, ``Longitudinal Outcomes of Subsidized Housing 
Recipients in Matched Survey and Administrative Data,'' Cityscape 8, 
no. 2 (2005): 207.
    \14\ Michael C. Lens, Ingrid Gould Ellen, and Katherine O'Regan, 
``Do Vouchers Help Low-Income Households Live in Safer Neighborhoods? 
Evidence on the Housing Choice Voucher Program,'' Cityscape 13, no. 3 
(2011): 135-59.
---------------------------------------------------------------------------
    Voucher recipients have exercised this choice in a way that 
benefits their children. A widely cited, recent paper shows that better 
neighborhood environments lead to better adult outcomes for children in 
recipient households.\15\ They have higher college attendance rates and 
labor earnings and are less likely to be single parents.
---------------------------------------------------------------------------
    \15\ Raj Chetty, Nathaniel Hendren, and Lawrence F. Katz, ``The 
Effects of Exposure to Better Neighborhoods on Children: New Evidence 
from the Moving to Opportunity Experiment,'' American Economic Review 
106, no, 4 (2016): 855-907.
---------------------------------------------------------------------------
    Before considering reforms of low-income housing policy, it is 
important to address a bit of folklore that has been influential in 
housing policy debates: that construction programs perform better than 
housing vouchers in tight housing markets. Todd Sinai and Joel 
Waldfogel show that additional housing vouchers result in a larger 
housing stock than the same number of newly built units in subsidized, 
privately owned housing projects.\16\
---------------------------------------------------------------------------
    \16\ Todd Sinai and Joel Waldfogel, ``Do Low-Income Housing 
Subsidies Increase the Occupied Housing Stock?'' Journal of Public 
Economics 89, no. 11-12 (2005): 2137-64.
---------------------------------------------------------------------------
    In light of other evidence, the most plausible explanations are 
that subsidized construction crowds out unsubsidized construction 
considerably and that the housing voucher program induces more 
recipients to live independently. The voucher program serves poorer 
households that are more likely to be doubled up in the absence of 
housing assistance. Crowding out is surely greatest in the tightest 
housing markets. In the absence of subsidized construction in these 
markets, unsubsidized construction would be high, and unemployment 
among construction workers would be low. Subsidized construction would 
divert workers from unsubsidized construction.
    Furthermore, it is reasonable to believe tenant-based vouchers get 
families into satisfactory housing much faster than any construction 
program, even in the tightest housing markets. For example, the amount 
of time from when new vouchers are allocated to housing authorities to 
when they are used by voucher recipients is surely less than the amount 
of time from when new tax credits are allocated to State housing 
agencies to when tax-credit units are occupied.
    Even though some households do not use the vouchers offered, 
housing authorities can put all, or almost all, their vouchers to use 
in less than a year in any market condition. They can fully utilize 
available vouchers by over-issuing vouchers early in the year and then 
adjusting the recycling of the vouchers that are returned by families 
that leave the program late in the year. No production program can hope 
to match this speed in providing housing assistance to low-income 
households.
Proposed Reforms of Low-Income Housing Policies To Alleviate Poverty
    The available evidence on program performance has clear 
implications for housing policy reform. To serve the interests of 
taxpayers who want to help low-income families with their housing and 
the poorest families that have not been offered housing assistance, 
Congress should shift the budget for low-income housing assistance from 
project-based to tenant-based housing assistance as soon as current 
contractual commitments permit and phaseout active construction 
programs.
    This section describes proposals for reform of low-income 
assistance that will alleviate poverty without spending more money. The 
reforms deal with all parts of the current system--active construction 
programs, existing privately owned housing projects, public housing, 
and the housing voucher program.
    Active Subsidized Construction Programs. The Low-Income Housing Tax 
Credit (LIHTC) is the largest active construction program. It 
subsidizes the construction of more units each year than all other 
programs combined. LIHTC recently became the Nation's largest low-
income housing program, serving 2.4 million households, and it is the 
fastest growing. The tax credits themselves involved a tax expenditure 
of about $6 billion in 2015. However, these projects received 
additional development subsidies from State and local governments, 
usually funded through Federal intergovernmental grants, accounting for 
one-third of total development subsidies.\17\ Therefore, the total 
development subsidies were about $9 billion a year.
---------------------------------------------------------------------------
    \17\ Jean L. Cummings and Denise DiPasquale, ``The Low-Income 
Housing Tax Credit: An Analysis of the First Ten Years,'' Housing 
Policy Debate 10, no. 1 (1999): 299.
---------------------------------------------------------------------------
    Furthermore, the GAO found that owners of tax-credit projects 
received subsidies in the form of project-based or tenant-based Section 
8 assistance on behalf of 40 percent of their tenants.\18\ The 
magnitude of these subsidies has never been documented. If their per-
unit cost were equal to the per-unit cost of tenant-based housing 
vouchers in 2015, they would have added more than $8 billion a year to 
the cost of the tax-credit program. If so, the full cost of housing 
people in tax-credit projects would have been about $17 billion in 
2015.
---------------------------------------------------------------------------
    \18\ U.S. General Accounting Office, Tax Credits: Opportunities to 
Improve Oversight of the Low-Income Housing Program, GGD/RCED-97-55, 
1997, 40.
---------------------------------------------------------------------------
    Unlike HUD's programs, the LIHTC is poorly targeted to the poorest 
households. Some tax credits are used to rehabilitate older housing 
projects built under HUD and U.S. Department of Agriculture programs 
that continue to provide deep subsidies to their occupants. Other tax-
credit units are occupied by families with portable Section 8 housing 
vouchers. The families in these units typically have very low earnings. 
However, the majority of occupants of tax-credit projects do not 
receive these deep subsidies related to their income. Their average 
income is more than twice the average for the occupants who receive the 
deep subsidies, and they are well above poverty thresholds.\19\
---------------------------------------------------------------------------
    \19\ Ibid., 146.
---------------------------------------------------------------------------
    The poor targeting of its subsidies and the evidence on its cost-
ineffectiveness argue strongly for the cessation of subsidies for 
additional LIHTC projects. Reducing new authorizations under the 
program by 10 to 20 percent each year would achieve this outcome in an 
orderly fashion. The money spent on this program would be better spent 
on expanding HUD's well-targeted and cost-effective Section 8 Housing 
Choice Voucher Program.
    Because the congressional committees that oversee the two programs 
are different, this transfer of funds would be difficult to arrange. 
However, the committees that oversee the LIHTC could divert the reduced 
tax expenditures on the LIHTC to a refundable tax credit for the 
poorest low-income homeowners, thereby offsetting to some extent the 
anti-homeownership bias of the current system of low-income housing 
assistance. About 25 percent of all unassisted households in the lowest 
real-income decile are homeowners.\20\ To avoid excess profits to 
sellers, it is extremely important that buyers are able to purchase 
from any seller.\21\
---------------------------------------------------------------------------
    \20\ In determining a household's real income, this calculation 
adds an imputed return on home equity to the income of homeowners and 
accounts for differences in family size and composition and price 
levels across locations. Edgar O. Olsen, ``Promoting Homeownership 
Among Low-Income Households,'' Urban Institute, August 20, 2007, Table 
1, http://www.urban.org/UploadedPDF/411523_promoting_homeownership.pdf.
    \21\ Edgar O. Olsen and Jens Ludwig, ``The Performance and Legacy 
of Housing Policies,'' in The Legacies of the War on Poverty, ed. 
Martha Bailey and Sheldon Danziger (New York: Russell Sage Foundation, 
2013), 218-21.
---------------------------------------------------------------------------
    Existing Privately Owned Subsidized Projects. The second broad 
proposal to reform low-income housing policy in the interest of poverty 
alleviation is to not renew contracts with the owners of private 
subsidized projects. The initial agreements that led to building or 
substantially rehabilitating these projects called for their owners to 
provide housing that meets certain standards to households with 
particular characteristics at certain rents for a specified number of 
years. At the end of the use agreement, the government must decide on 
the terms of the new agreement, and the private parties must decide 
whether to participate on these terms. A substantial number of projects 
end their use agreements each year. When use agreements are not 
renewed, current occupants are provided with other housing assistance, 
almost always tenant-based vouchers.
    Up to this point, housing policy has leaned heavily in the 
direction of providing owners with a sufficient subsidy to induce them 
to continue to serve the low-income households in their projects. We 
should not repeat these mistakes. Instead we should give their tenants 
portable vouchers and force the owners to compete for their business. 
The evidence on the cost-effectiveness of renewing use agreements 
versus tenant-based housing vouchers indicates that offering such 
vouchers would reduce the taxpayer cost of assisting these families. 
The savings could be used to assist additional families.
    It is important to realize that for-profit sponsors will not agree 
to extend the use agreement unless this provides at least as much 
profit as operating in the unsubsidized market. Because these subsidies 
are provided to selected private suppliers, the market mechanism does 
not ensure that rents paid for the units will be driven down to market 
levels. If this is to be achieved at all, administrative mechanisms 
must be used. Administrative mechanisms can err in only one direction--
providing excess profits. If the owner is offered a lower profit than 
in the unsubsidized market, the owner will leave the program. We should 
leave the job of getting value for the money spent to the people who 
have the greatest incentive to do so: namely, the recipients of housing 
assistance.
    It is often argued that giving families that live in privately 
owned subsidized housing projects portable housing vouchers at the end 
of the use agreement will force them to move. This would not be the 
case if tenants are offered the same options as they are offered under 
the current system when the project's owner opts to leave the program. 
HUD will pay the market rent for the unit as long as the tenant wants 
to remain in it but offers the tenant the option of a regular housing 
voucher. This would enable the family to continue to live in its 
current unit without devoting more income to rent, and it would offer 
the family other options that it might prefer.
    It is also argued that the failure to renew use agreements on 
privately owned subsidized projects reduces the number of affordable 
housing units. If the occupants of these projects are offered portable 
vouchers, this could not be further from the truth. When use agreements 
are extended, the only unit that is made affordable to an assisted 
family living in the project is its own unit. If that family is offered 
a portable voucher, many units become affordable to the family. 
Contrary to the arguments of lobbyists for project-based housing 
assistance, failing to renew use agreements on subsidized housing 
projects increases rather than decreases the stock of housing that is 
affordable to low-income households.
    Public Housing. The public housing reform proposals are proposals 
to better use the funds and assets currently available to public 
housing authorities. They are
designed to alleviate poverty by delivering better housing to tenants 
who remain in public housing, providing current public housing tenants 
with more choice concerning their housing, assisting additional 
households, and reducing the concentration of the poorest families in 
public housing projects. The proposals would require congressional 
action to change the restrictions on housing authorities, except 
possibly for those participating in HUD's Moving to Work Demonstration.
    Currently, HUD provides public housing authorities with more than 
$6 billion each year in operating and modernization subsidies for their 
public housing projects. My proposal would give each housing authority 
the same amount of Federal money as it would have gotten with the old 
system, so no authority would be able to object on the grounds that it 
would have less to spend on its clients. However, the proposal would 
alter greatly the restrictions on the use of this money and increase 
the total revenue of housing authorities.
    The proposal requires every public housing authority to offer 
current tenants the option of a portable housing voucher or remaining 
in their current unit on the previous terms, unless the housing 
authority decides to demolish or sell its project. To ensure that 
housing authorities can pay for these vouchers with the money 
available, the generosity of the voucher subsidy would be set to use 
the housing authority's entire Federal subsidy in the highly unlikely 
event that all public housing tenants accepted the vouchers. The 
generosity of these vouchers would almost always differ from the 
generosity of regular Section 8 vouchers, although the difference would 
be small in most cases.
    Housing authorities would be allowed to sell any of their projects 
to the highest bidder with no restrictions on its future use. This 
would provide additional revenue to improve their remaining projects or 
provide vouchers to additional households. The requirement that these 
projects must be sold to the highest bidder maximizes the money 
available to help low-income families with their housing. It also 
avoids scandals associated with sweetheart deals.
    Many housing authorities would surely choose to sell their worst 
projects. With uniform vouchers offered to families living in all of a 
housing authority's projects, it is reasonable to expect that the 
vouchers will be accepted by more tenants in the worst projects. These 
are the projects that would be the most expensive to renovate up to a 
specified quality level. They are the types of projects that have been 
demolished under the HOPE VI program and that Congress intended to 
voucher out under the 1998 Housing Act. By selling the public housing 
projects on which they would have spent the most money and providing 
their occupants with vouchers that have the same cost as the 
authority's average net expenditure on public housing units, the public 
housing authority would free up money to better maintain its remaining 
units or provide vouchers to additional households.
    When a project is sold, the remaining tenants in that project would 
be offered the choice between vacant units in other public housing 
projects or a housing voucher, the standard procedure when projects are 
demolished or substantially rehabilitated. When public housing units 
are vacated by families that accept vouchers, the housing authority 
would offer the next family on the waiting list the option of occupying 
the unit or a portable housing voucher. If the family takes the 
voucher, the housing authority would be allowed to charge whatever rent 
the market will bear for the vacant unit. This would provide additional 
revenue to housing authorities without
additional government subsidies.
    To reduce poverty concentrations in public housing projects, 
Congress might want to eliminate the income-targeting rules for 
families that pay market rents for public housing units. Indeed, it 
might want to eliminate upper-income limits for these families. Under 
current regulations, at least 40 percent of new occupants must have
extremely low incomes. Under the proposal, the new occupants will 
receive no public subsidy, and so income targeting would serve no 
public purpose.
    Each year some former public housing tenants who had used the 
proposed vouchers to leave their public housing units would give up 
these vouchers for a variety of reasons. The money saved from their 
departure should be used to offer similar vouchers to other families 
eligible for housing assistance. The recycling of voucher funds would 
ensure that the tax money spent on public housing will continue to 
support at least the same number of families.
    The preceding proposals would benefit many current public housing 
tenants without increasing taxpayer cost. The public housing tenants 
who accept vouchers would obviously be better off because they could 
have stayed in their current units on the old terms. They would move to 
housing meeting HUD's housing standards that better suits their 
preferences. Tenants who remain in public housing would benefit from 
better maintenance of their units.
    The only public housing tenants who might be hurt by the proposal 
are tenants who want to remain in the projects that housing authorities 
decide to sell. Since it is impossible to justify renovating structures 
that reach a certain level of obsolescence and dilapidation, the 
initial opposition of a small minority of public housing tenants should 
not prevent benefits to the majority. Generally, public housing 
redevelopment has not required occupants' consent.
    Given the difficulty of predicting all of the consequences of such 
far-reaching changes, we should start with a controlled experiment 
involving innovative public housing authorities willing to implement 
these proposals for a randomly selected subset of their public housing 
projects. This experiment would produce evidence on the effects of the 
proposals, and it would provide useful information for modifying them 
to avoid unforeseen negative consequences and achieve better outcomes.
    Housing Voucher Program. Even though HUD's Housing Choice Voucher 
Program is the country's most cost-effective and equitable low-income 
housing program, it too offers opportunities for reform in the interest 
of poverty alleviation. The Housing Choice Voucher Program provides 
very large subsidies to its recipients while offering nothing to other 
families in similar circumstances.
    In 2015, the national mean subsidy for a household with one adult, 
two children, and no countable income was almost $12,000. The poverty 
threshold for this family was about $20,000. A voucher subsidy of this 
magnitude enables its recipient to
occupy a rental unit of about average desirability among two-bedroom 
units, that is, a unit with about the median market rent.
    From the viewpoint of poverty alleviation correctly conceived, it 
is surely better to provide somewhat more modest housing to more of the 
poorest households rather than housing of this quality to a fortunate 
few. The current welfare system provides recipients of housing vouchers 
with resources well above the relevant poverty threshold, while leaving 
others without housing assistance well below it.
    In the interest of ameliorating this inequity and reducing poverty 
without harming current recipients, new recipients could be offered 
less generous subsidies so that more households could be served with a 
given budget, and current voucher recipients could receive the generous 
subsidies that are offered by the current program. Because more than 10 
percent of voucher recipients exit the program each year, this 
initiative will allow more families to be served each year without 
spending more money and will improve the program's equity. Eventually, 
all participants in the same economic circumstances would receive the 
same lower subsidy.
    The new subsidy level could be chosen so that the voucher program 
could serve all of the poorest households that asked for assistance. At 
current subsidy levels, many more people want to participate than can 
be served with the existing budget. Reducing the voucher subsidy by the 
same amount for households at all income
levels would make families currently eligible for subsidies less than 
this amount ineligible for voucher assistance. These are the currently 
eligible households with the largest incomes. This would free up money 
to provide vouchers to needier households that would not have been 
served by the current system.
    By reducing the subsidies sufficiently, we would reach a point 
where all of the poorest households that ask for assistance would get 
it. Olsen analyzes the effect of alternative reforms of this type on 
who is served by the voucher program.\22\ This reform would surely 
reduce evictions and homelessness, although these effects have not been 
studied.
---------------------------------------------------------------------------
    \22\ Olsen, ``The Effect of Fundamental Housing Policy Reforms on 
Program Participation.''
---------------------------------------------------------------------------
Conclusion
    The rapid growth of spending on entitlement programs for the 
elderly that will occur until they are substantially reformed will 
create pressure to reduce spending on programs such as low-income 
housing programs whose budgets are decided each year by Congress. In 
this situation, we should be focusing on how to get more from the money 
currently allocated to these programs.
    Building new units is an extremely expensive way to provide better 
housing to low-income households, and subsidizing selected suppliers is 
especially expensive. Renting existing units that meet minimum 
standards is much cheaper. This also avoids providing recipients of 
low-income housing assistance with better housing than the poorest 
families ineligible for assistance. The proposed reforms will gradually 
move the system of low-income assistance toward more cost-effective 
approaches and enable us to provide housing assistance to millions of 
additional people without spending more money.
    It is often argued that a shortage of affordable housing calls for 
subsidizing the construction of new units. This argument is seriously 
flawed. Almost all people are currently housed. If we think that their 
housing is too expensive (commonly called unaffordable), the cheapest 
solution is for the government to pay a part of the rent. The housing 
voucher program does that. This program also ensures that its 
participants live in units that meet minimum standards. Building new 
units is a much more expensive solution to the affordability problem.
    Furthermore, it is not necessary or desirable to construct new 
units to house the homeless. The number of people who are homeless is 
far less than the number of vacant units--indeed, far less than the 
number of vacant units renting for less than the median. In the entire 
country, there are only about 600,000 homeless people on a single night 
and more than 3.6 million vacant units available for rent. Even if all 
homeless people were single, they could be easily accommodated in 
vacant existing units, and that would be much less expensive than 
building new units for them. Furthermore, most of the 600,000 people 
who are homeless each night already have roofs over their heads in 
homeless shelters, which are also subsidized. The best provide good 
housing.
    Reducing the substantial differences in subsidies across identical 
households that characterize the current system would contribute 
further to poverty alleviation. It would help fill the gap between 
poverty thresholds and the resources of the poorest households. The 
current system provides substantial subsidies to recipients while 
failing to offer housing assistance to many others who are equally 
poor. Even among the fortunate minority who are offered assistance, the 
variation in the subsidy across identical households living in 
subsidized housing projects is enormous. The best housing projects 
offered by a particular program are much more desirable than the worst, 
but tenants with the same characteristics pay the same rent for units 
in either. Because the most cost-effective program offers the same 
subsidy to identical recipients, the shift away from other programs 
toward it will focus more of the system's resources on the poorest 
families.
                                 ______
                                 
                   PREPARED STATEMENT OF TRACY GRANT
             President, Eureka Gardens Tenants' Association
                           September 22, 2016
    I would like to thank Chairman Scott and Senator Rubio for inviting 
me to testify today. Almost exactly a year ago, I worked with the 
community of tenants that I lead as the President of the Eureka Gardens 
Tenants' Association to publicize the conditions that we have to live 
in every day. I would have scarcely imagined then that today, 1 year 
later, I would be testifying before this Committee today in Washington, 
DC. In the time I have spent at Eureka Gardens, I have seen and 
experienced both hardships and triumphs, and I would like to share some 
of those stories with you today.
    My story begins in September 2010, when I applied for the 
apartment, signed my lease, got my keys and did the walk through. Even 
early on in my time at Eureka Gardens, I had to deal with mold in the 
kitchen and bathroom. Some days I would come home and the bathroom was 
flooded. This bathroom flooding was not done by me or my children, it 
just happened all by itself. The water even began coming into my room.
    That wasn't everything, either. There wasn't an air conditioning 
unit in my apartment, like with many others. I had to pay the front 
office manager's husband $50 to put an air conditioning unit in the 
window. Now, I don't know how many people in this room have had to 
endure a Florida summer without air conditioning, but it's not a fun 
experience, and it felt ridiculous to me that I had to pay off the 
manager's husband in order to have a necessity like AC in my home.
    But the problems at Eureka Gardens didn't stop once I walked out 
the door. Crime is prevalent in and around Eureka Gardens. There was 
even a shooting in the area that occurred not long after I moved there. 
It was then that I realized this was not an environment that I wanted 
my children to have to grow up in and I wanted to do something about 
it.
    When another young man was shot in October 2014, a lot of the 
residents were fed up with the poor conditions created by the owner's 
neglect of the property and the crime it attracted, so we had a 
resident meeting. There, I realized that I wasn't the only resident 
that felt this way about Eureka Gardens, and at the next resident 
meeting I was elected Tenants' Association President.
    The nationwide attention that Eureka Gardens has received for gas 
leaks, persistent mold, and lead poisoning has all occurred during my 
tenure as President. In September 2015--just over a year ago--there was 
a meeting with the Tenants' Association and the owner and management 
teams where we were supposed to talk about bringing new programs to the 
neighborhood. But at this meeting, everyone was so frustrated that it 
turned into a discussion of the conditions they were forcing us to live 
in.
    We were so frustrated by the lack of changes at Eureka Gardens that 
on September 29, 2015, I wrote a letter outlining our issues and 
concerns and sent it to our local officials, including the HUD office. 
On October 2, 2015, I received a response back, and before you knew it 
we had Mayor Lenny Curry, Councilman Garrett Dennis, Pastor Mark 
Griffin, the fire marshal, the sheriff lined up in our support. I want 
to thank our local government officials for their strong support and 
commitment to our community during this time.
    Even with all of this support, conditions did not significantly 
improve. Gas leaks sent some of our residents to the hospital, and 
persistent mold made it hard to breathe sometimes. Repair crews often 
did more harm than good, like when they had to shut off the heat in 
November. There was even a case where a child had a case of lead 
poisoning. Crime is still a problem. About a month ago, seven people 
were shot at Eureka Garden, including a 20-year-old mother of two.
    The residents of Eureka Gardens have had to endure conditions like 
this for years, but now we are speaking together as one voice so that 
people can know what it's like to live there. I'm grateful for the 
public attention that our situation has received, but I know I speak 
for all of the residents when I say that what matters most to us are 
some real changes. Changes that help us live our lives without fear of 
crime or sickness. Changes that give our children a safe place to come 
home to after school.
    I am here today because I want to make sure that we have better 
living conditions. I pray that if we are able to get a new owner, they 
will rebuild the apartments and make it better for the residents. Thank 
you for this opportunity.
                                 ______
                                 
                 PREPARED STATEMENT OF MAJOR JOSH LEWIS
      Riviera Beach Police Department, Palm Beach County, Florida
                           September 22, 2016
Good morning,

    My name is Major Josh Lewis of the Riviera Beach Police Department, 
a municipal police department located in Palm Beach County, Florida. I 
have been a law enforcement for almost 19 \1/2\ years, all with the 
Riviera Beach Police Department. My professional training highlights 
include having attended the Southern Police
Institute Command Officers Development Academy and the FBI National 
Academy. I also possess a Master's Degree in Criminal Justice, with a 
Major in Critical Incident Management.
    The Riviera Beach Police Department initiated an investigation at 
the Stonybrook Apartment Complex, located at 1555 Martin Luther King 
Boulevard, Riviera Beach, Florida, in an effort to impact the various 
public safety, health, and quality of life issues at this apartment 
complex. Stonybrook, which was constructed in 1972, is an affordable 
residential development comprised of a mix of two- and three-bedroom, 
two-bath housing units. There is a laundry/maintenance facility and a 
community center on the property. Fourteen buildings house 216 
residential rental units. The property sits on 8.67 acres.
    Between November 28, 2012 and March 20, 2013, city officials held a 
series of meeting with representatives of MiamiMar, the property 
management company for Stonybrook, and Armando Fana, the Regional 
Director for the U.S. Department of Housing and Urban Development 
(HUD). The topics of discussion were the prevalence of criminal 
activity and property maintenance issues at this property.
    Simultaneously, the property owner was notified of the existence of 
public nuisance conditions of the property; however, the property owner 
and their agent have resisted the attempts of city officials to compel 
them to implement strategies and improvements at their property and the 
public and other conditions continued to exist.
    During this time, there were numerous drug warrants executed which 
resulted in numerous felony arrests. These arrests satisfied the legal 
standard to declare Stonybrook Apartments as a public nuisance. 
Property owners and HUD were notified of these findings. Research as 
early as 2012 revealed that GMF Stonybrook LLC, the property owner of 
Stonybrook, has a history of not maintaining the
residential units in decent, safe and sanitary manners; more 
specifically, in Memphis, Tennessee, and Jacksonville, Florida, where 
it has lost its Federal funding based on repeated code violations.
    In March 2013, Stonybrook received a Notice of Violation for 
accumulation of debris, loose garbage, landscaping, and overgrowth, 
along with an assortment of other miscellaneous code violations. In 
June 2014, Stonybrook was declared to be a public nuisance pursuant to 
Chapter 11, Section 11-183 (1). The property owners stipulated to 
complete the following improvements which were designed to abate the
ongoing criminal nuisances, to include securing access points of the 
property, to provide armed security, install security cameras, install 
a sliding access controlled gate, install landscaping, remove loose 
garbage, fix irrigation systems, paint exterior of the buildings, and 
add lighting.
    In August 2013, at a Code Enforcement Magistrate Hearing, the owner 
was found in violation of accumulation of debris, loose garbage, 
landscaping, and overgrowth, along with an assortment of other 
miscellaneous code violations. The Magistrate allowed the owner 120 
days to comply or fines would commence. The police department continued 
to monitor the property to ensure compliance with the Magistrate's 
order.
    In May 2014, a Nuisance Abatement Status Hearing took place; after 
presenting evidence, the Magistrate found that the nuisance had not 
been corrected. As a result, the city and property owners agreed to 
extend the Magistrate's jurisdiction over the property until December 
2014.
    In November 2014, a Notice of Hearing to impose Fines and Claim of 
Lien hearing was held. The Magistrate found that the property owner had 
not complied with the order and the violations of landscaping and loose 
garbage remained.
    In December 2014, a Nuisance Abatement Status hearing was held. At 
this hearing, the city provided evidence that Stonybrook was still not 
fully in compliance with the Nuisance Abatement Order, and that the 
landscaping and loose garbage violations were not corrected.
    In January 2015, Stonybrook fired their property management 
company. The police department continued to monitor this property to 
ensure compliance with the conditions of the Nuisance Abatement and 
Code Enforcement cases.
    In October 2015, a new case was heard before the Magistrate for 
continued public nuisance issues and again, the property was declared 
to be a public nuisance pursuant to Chapter 11, Section 11-183 (1). As 
such, the owners stipulated to improvements designed to abate the 
ongoing criminal nuisance, to include providing security services 
onsite, perimeter integrity to secure the entire property (front gate), 
surveillance systems, parking decal and towing system, and removal and/
or eviction procedures. These improvements were ordered to be completed 
within 45 days. The police department continued to monitor the property 
to ensure compliance with the Magistrate's order.
    In May 2016, a Nuisance Abatement Status Hearing took place. In 
this hearing, the Magistrate found the city provided sufficient 
evidence and testimony establishing Stonybrook as a recurring public 
nuisance. This was based in part through a series of drug sales which 
had taken place on the property.
    In June 2016, with Stonybrook management compliance, city fire 
department personnel completed a detailed fire safety inspection of 
Stonybrook Apartments. In this inspection, numerous violations were 
identified pertaining to smoke detectors, sounders, lighting, and other 
life safety issues.
    In May 2016, the city was contacted by Senator Rubio's office 
regarding an inquiry into violations at Stonybrook owner property for 
possible Department of Justice involvement. The city will continue to 
work hand and hand with HUD to
address these matters, but diligent oversight and stringent monitoring 
will be paramount. The property owners have continuously failed to 
completely correct the
Nuisance and Code issues present and show no inclination to do so.
                                 ______
                                 
               PREPARED STATEMENT OF VINCENT F. O'DONNELL
                     Affordable Housing Consultant
                           September 22, 2016
    Good morning, Chairman Scott, Ranking Member Menendez, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify regarding the process of HUD oversight of federally assisted 
multifamily housing.
    I am Vincent O'Donnell, and am currently a private affordable 
housing consultant who has worked for over 40 years with State and 
local government, nonprofit developers, Local Initiatives Support 
Corporation, the Nation's largest nonprofit
community development intermediary, and resident organizations. My 
primary mission has been, and is, to promote the creation and 
preservation of safe, affordable multifamily housing. In many of these 
capacities, I have worked closely with HUD at the local and 
Headquarters leadership level on issues specifically related to 
assisted multifamily housing that has become distressed.
    Today, I speak for myself, but want to note that I am a co-author 
of an August 1, 2016, letter from the National Preservation Working 
Group to HUD regarding the recent challenges that the U.S. Department 
of Housing and Urban Development (HUD) has been confronting regarding 
HUD-assisted properties experiencing conditions of distress and 
unsuitable living conditions for residents. The PWG is a broad 
coalition of organizations that have advocated for the preservation of 
federally assisted affordable rental housing. Its members include local 
and national nonprofit developers, policy organizations, tenant 
advocates, and State and local government. The PWG is convened by the 
National Housing Trust, a national nonprofit engaged in housing 
preservation through public policy advocacy, nonprofit real estate 
development and lending. This letter is attached to my testimony. In 
this testimony, I will summarize the PWG letter, while also attempting 
to put the current situation into a larger context. In my opinion, the 
overall system of providing project-based rental assistance is sound, 
and HUD has powerful asset management and quality control tools, but 
better coordination is needed to ensure that no property reaches the 
severe level of distress that has prompted the need for this hearing.
    I think it is important to note that the overwhelming majority of 
project-based rental assistance properties are in good physical 
condition. The portfolio of properties that have brought us here today 
are unfortunate and unacceptable outliers, but were distressed when 
transferred to the current ownership.
    Best practices for stabilizing and preserving distressed properties 
have been
developed over several decades and are effective and vitally important 
in today's high-cost housing market. In the late 1970s, HUD was on its 
way to becoming the largest landlord in Boston, as a result of large 
scale foreclosure of properties with HUD-subsidized mortgages. One of 
those properties was Methunion Manor, in Boston's South End. This 
property's tenant association pointed out to then-Senator Edward Brooke 
that HUD's policies of ensuring a market return to the FHA Insurance 
Fund would result in their displacement from a neighborhood that was 
beginning to gentrify, in part because they and the Federal investment 
has helped to stabilize a previously distressed neighborhood. With the 
Senator's leadership, Congress gave HUD both a mandate and a set of 
tools to enable them to remain in this neighborhood, based on mutually 
reinforcing principles:

  <bullet>  long-range repairs,

  <bullet>  community engagement; and

  <bullet>  preservation of project-based rental assistance.

    The result was the restoration to physical and financial health of 
Methunion Manor [as a housing cooperative], and thousands of other 
units in Boston. Since then, there have been other challenges to the 
retention of this affordable housing stock: prepayment of subsidized 
mortgages and resulting deregulation, and expiration of project-based 
Section 8 contracts, but those core principles have continued to be 
observed.
    Resident and community engagement ensures that the property's 
physical and
social needs are identified; adequate project-based rental assistance 
ensures the availability of financing for capital repairs and also 
retains a stock of units restricted as affordable housing.
    Over the years, a toolkit has been developed for HUD portfolio 
oversight based on the preservation principles I mentioned. This 
toolkit also provides flexibility to tailor solutions to local needs. 
Some of what we've learned includes:

    Most assisted properties are good physical condition. The National 
Housing Trust has reported that, according to HUD, 96 percent of its 
23,198 multifamily properties have passing scores of 60 or higher on 
REAC inspections. The average passing score is 86.7 percent. Only 0.1 
percent of properties score below 30, 3.5 percent score between 31 and 
59 percent. In other words, although we must double-down on problem 
properties and their causes, this inventory is mostly successful.

  <bullet>  Early identification of problems and intervention are 
        essential. HUD has now restored its Management and Occupancy 
        Review process, which will enable HUD to look more deeply into 
        issues affecting the property's operations than a REAC score 
        alone can do. REAC itself can be a blunt instrument, not always 
        revealing serious problems. Further, it would be of great value 
        to be able to mine the REAC and MOR data to detect multiple 
        problems associated with common ownership or management.

  <bullet>  HUD has recently redesigned its entire multifamily 
        portfolio oversight function to align better with private 
        sector asset management techniques and create more 
        accountability, but it needs more careful allocation of 
        resources for its oversight to reach its full potential.

  <bullet>  Mature properties undergo ownership transfers as a result 
        of normal market processes. HUD's purchaser review process is 
        an opportunity to ensure not only a strong owner committed to 
        affordability, but a sound ownership and management plan that 
        also reflects the property's true physical needs. The 
        preservation community stands ready to support HUD in improving 
        its existing tools for this essential process.

  <bullet>  HUD has many intervention strategies, but their 
        implementation works best if there are clear thresholds for 
        classifying properties as distressed, after consultation with 
        local stakeholders. The experience of the Commonwealth of 
        Massachusetts, the city of Boston and the local HUD office 
        provide good examples of the positive outcomes of this 
        approach.

  <bullet>  If a property has become distressed, remediation is urgent, 
        both for resident health and safety, and also for long-term 
        preservation. For this, resources are needed, and termination 
        of assistance contracts should be a remedy of last resort: it 
        displaces current residents from their homes and their social 
        support systems, removes the long-term affordability from the 
        property, and usually leaves a troubled asset to blight the 
        community. Intermediate steps can be taken and, in the worst 
        case where the current location is unsuitable, subsidies can be 
        transferred to a new neighborhood with better opportunities.

  <bullet>  When a new owner takes over a distressed property, a 
        combination of forbearance of enforcement and strong 
        accountability is needed. Several years ago, in a different 
        property in Jacksonville, where Eureka Gardens is located, a 
        coalition of local stakeholders working with HUD and LISC was 
        able to effect such a balance and that provided a window of 
        time to make both immediate urgent repairs and to restore this 
        major property to being a healthy community asset.

  <bullet>  Some of HUD's intervention tools require cooperation from 
        other governmental agencies. For example, Congress has given 
        HUD authority to seek a
        Federal receiver when it lacks mortgage enforcement rights, but 
        this depends on the U.S. Attorney's willingness to participate. 
        In addition to greater interagency cooperation, the powers and 
        duties of such a Federal receiver should be clarified. For 
        example, it is not clear whether such a receiver can require 
        the sale of a property if that is found to be the only path to 
        correction of problems.

    Now we also have to recognize that best practices don't always 
work, since no system is perfect, which is why we're here today. Those 
of us in the affordable housing preservation community continue to work 
with HUD, residents and owners to
ensure that these valuable Federal investments in our communities 
aren't lost. Now, more than ever, as our cities undergo recovery, 
assisted housing is now located in places that are on their way back to 
being neighborhoods of opportunity, and only place-based subsidies 
enable them to stay there.
    Many Federal investments in affordable housing were sited based on 
economic considerations, with developers basically going where land 
prices fit budgetary constraints of the programs.
    Many of those neighborhoods are now rising markets in which current 
subsidized housing residents have for decades helped stabilize these 
neighborhoods. These same residents now could not afford to live there, 
with or without a voucher, but place-based rental assistance enables 
them to remain in their community. On Monday, at a convening about 
neighborhood change, displacement and equitable development organized 
by the Federal Reserve Bank of New York, LISC and the New York 
University Furman Center, the constant refrain from around the country 
was that preservation of the existing affordable housing stock is 
integral to mitigating the negative effects on current residents of 
otherwise desirable rising neighborhood property values.
    In conclusion, the portfolio of HUD-assisted affordable multifamily 
is an increasingly valuable asset that needs strong oversight as well 
as preservation. HUD has a powerful set of tools, and should be 
supported and held accountable in its robust application of these 
measures. Preservation of place-based subsidies is often the only way 
that low-income residents can afford to remain in vibrant urban 
communities or in rural communities where there is no other decent 
rental stock and one of few tools to ensure a stock of well-maintained 
affordable units. This point of view is complementary to recent efforts 
at promoting utilization of portable Section 8 vouchers in 
neighborhoods of opportunity. These efforts are not mutually exclusive.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
